<html>
<title> - ALLEGATIONS OF WASTE, FRAUD AND ABUSE AT THE NEW U.S. EMBASSY IN IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 ALLEGATIONS OF WASTE, FRAUD AND ABUSE AT THE NEW U.S. EMBASSY IN IRAQ

=======================================================================



                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                and the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2007

                               __________

                           Serial No. 110-61

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform




                     U.S. GOVERNMENT PRINTING OFFICE

43-507 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
                                     TODD RUSSELL PLATTS, Pennsylvania
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2007....................................     1
Statement of:
    Demming, Karl, engineering and construction manager, KBR.....    25
    Owens, John, former employee, First Kuwaiti Trading and 
      Contracting Co.; and Rory Mayberry, former employee, First 
      Kuwaiti Trading and Contracting Co.........................    79
        Mayberry, Rory...........................................    86
        Owens, John..............................................    79
    Williams, Major General, retired, Charles E., Director, 
      Office of Overseas Building Operations, U.S. Department of 
      State; William Moser, Deputy Assistant Secretary for 
      Acquisitions, U.S. Department of State; Patrick Kennedy, 
      Director, Office of Management Policy, U.S. Department of 
      State; and Howard J. Krongard, Inspector General, U.S. 
      Department of State........................................   108
        Kennedy, Patrick.........................................   118
        Krongard, Howard J.......................................   121
        Williams, Major General, retired, Charles E..............   108
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland:
        June 7th cable...........................................    56
        KBR report dated May 25, 2007............................    42
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    15
    Demming, Karl, engineering and construction manager, KBR, 
      prepared statement of......................................    27
    Kennedy, Patrick, Director, Office of Management Policy, U.S. 
      Department of State, prepared statement of.................   119
    Krongard, Howard J., Inspector General, U.S. Department of 
      State, prepared statement of...............................   123
    Mayberry, Rory, former employee, First Kuwaiti Trading and 
      Contracting Co., prepared statement of.....................    88
    Owens, John, former employee, First Kuwaiti Trading and 
      Contracting Co., prepared statement of.....................    81
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............    23
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............    19
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California
        May 25th cable...........................................    32
        Prepared statement of....................................     5
    Williams, Major General, retired, Charles E., Director, 
      Office of Overseas Building Operations, U.S. Department of 
      State, prepared statement of...............................   111

ALLEGATIONS OF WASTE, FRAUD AND ABUSE AT THE NEW U.S. EMBASSY IN IRAQ

                              ----------                              


                        THURSDAY, JULY 26, 2007

        House of Representatives, Subcommittee on National 
            Security and Foreign Affairs, Committee on 
            Oversight and Government Reform, joint with the 
            Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee and subcommittee met, pursuant to notice, at 
10:10 a.m., in room 2154, Rayburn House Office Building, Hon. 
Henry A. Waxman (chairman of the Committee on Oversight and 
Government Reform) presiding.
    Present: Representatives Waxman, Davis of Virginia, 
Maloney, Cummings, Kucinich, Tierney, Watson, Lynch, Braley, 
Norton, McCollum, Sarbarnes, Shays, Platts, Cannon, Duncan, 
Issa, and Westmoreland.
    Staff present: Phil Schiliro, chief of staff; Phil Barnett, 
staff director and chief counsel; Karen Lightfoot, 
communications director and senior policy advisor; David 
Rapallo, chief investigative counsel; Theo Chuang, deputy chief 
investigative counsel; Margaret Daum, counsel; Christopher 
Davis, professional staff member; Earley Green, chief clerk; 
Teresa Coufal, deputy clerk; Matt Siegler, special assistant; 
Caren Auchman, press assistant; Zhongrui J.R. Deng, chief 
information officer; Leneal Scott, information systems manager; 
Dave Turk, staff director, National Security and Foreign 
Affairs Subcommittee; Andrew Su and Andrew Wright, professional 
staff members; Davis Hake, clerk; Steve Glickman, counsel; 
Kerry Gutknecht, staff assistant; David Marin, minority staff 
director; Larry Halloran, minority deputy staff director; Keith 
Ausbrook, minority general counsel; Ellen Brown, minority 
legislative director and senior policy counsel; John Brosnan, 
minority senior procurement counsel; A. Brooke Bennett and 
Emile Monette, minority counsels; Nick Palarino, minority 
senior investigator and policy advisor; Patrick Lyden, minority 
parliamentarian and member services coordinator; Brian 
McNicoll, minority communications director; and Benjamin 
Chance, minority clerk.
    Chairman Waxman. The committee and subcommittee will please 
come to order.
    Today, the committee is holding a hearing on the State 
Department's single largest construction project in the world, 
the $600 million U.S. Embassy in Baghdad. This is the first 
oversight hearing Congress has held on this immense project.
    We will hear today from the State Department witnesses that 
the Embassy will be built on time and under budget. I hope they 
are right.
    Billions of taxpayer dollars have been squandered on 
contracts in Iraq. There should be at least one major project 
that is done right.
    But there are red flags involving the Embassy complex that 
should not be ignored. On July 5, the Washington Post ran a 
front page article that described ``a cascade of building and 
safety blunders'' in the facility being built to house the 
Embassy security guards.
    This facility was built by the same company, First Kuwaiti, 
that is building the main Embassy. It was delivered to the 
Embassy with the assurance that it ``meets and exceeds'' 
contract requirements. It passed the inspections required by 
the State Department and it seemed like a success.
    But when the kitchen equipment was turned on for the first 
time in May, the appliances didn't work. The electrical wiring 
melted, creating a serious fire hazard. Embassy officials 
cabled Washington: ``Poor quality construction . . . [l]ife 
safety issues . . . inherent construction deficiencies . . . 
left the post with no recourse but to shut the camp down in 
spite of the blistering heat in Baghdad.''
    Over 2 months later, the base for the guards remains 
shuttered.
    As we will learn today, there are other red flags. The 
oversight and management of the Embassy project appears to be 
in disarray. The State Department agency responsible for the 
day to day oversight of the project is the Office of Overseas 
Buildings Operations [OBO], but the OBO appears to be in a 
raging battle with the State Department officials in Baghdad 
who will ultimately live and work in the new Embassy.
    The conflicts are so severe that the senior OBO official 
who is supposed to be on the ground in Iraq, monitoring the 
construction of the new Embassy has been banished from the 
country.
    It does not help matters that there are only three career 
State Department officials onsite to oversee this massive 
project. Everyone else is a private contractor.
    The project has also been beset by allegations that the 
prime contractor, First Kuwaiti, has used forced labor to build 
the Embassy, violating the laws against human trafficking and 
sending exactly the wrong message to Iraqis and the rest of the 
world about U.S. respect for human rights.
    This committee called this hearing to investigate these 
allegations. As the principal oversight committee in the House, 
that is our job.
    Unfortunately, the State Department has taken exactly the 
wrong approach to our inquiry. The Department has gone into 
full bunker mentality, stonewalling the committee's document 
requests and obstructing our efforts to conduct legitimate 
oversight of the Embassy project.
    The committee sent a letter on July 10th requesting 
documents in preparation for today's hearing. We asked for a 
list of eight discrete, clearly identified memos, reports and 
cables. We also asked for a set of broader documents including 
communications, briefings and meeting minutes. We informed the 
Department that we wanted the eight documents we specifically 
identified before today's hearing. The rest could be produced 
afterwards.
    In response, the committee was told almost daily that these 
documents were on the way. We were told: They are being 
gathered. They are being reviewed. They are in the approval 
process. They will be there tomorrow.
    But aside from two incomplete cables, none of the documents 
were provided. Finally, 2 weeks after we requested these eight 
documents, we issued a subpoena for the documents. The due date 
was yesterday at 4 p.m. The Department produced none of the 
documents by the deadline.
    Just this morning, the State Department faxed over a 
handful of documents that were required under the subpoena. 
Some of these documents raise even new questions.
    In one e-mail exchange, the Senior Coordinator of the State 
Department Office to Monitor and Combat Trafficking in Persons 
writes that he has ``strong concerns about allegations of human 
trafficking among state contractors in Iraq.''
    The State Department official in charge of overseeing the 
Embassy project instructs his staff, ``Do not respond to these 
folks as you can see no matter what you say you cannot win.''
    The fact that the Department is resisting congressional 
oversight doesn't mean that the project is failing, but it 
inspires no confidence in the Department's assertions that 
everything is on track.
    We have also received limited cooperation from the State 
Department's prime contractor on this project, First Kuwaiti. 
We sent an invitation to company officials to testify here 
today, but they refused. We asked to interview knowledgeable 
First Kuwaiti officials, but they refused. We asked for a 
telephone call to ask questions, but again they refused.
    First Kuwaiti did make a substantial document production to 
the committee and did provide a written statement, but from the 
standpoint of the U.S. taxpayer, its refusal to testify is, to 
me, another red flag.
    The State Department awarded First Kuwaiti a contract to 
build the largest U.S. Embassy in the world. The company is 
being paid a half a billion dollars in taxpayer funds, yet it 
is acting as if it is unaccountable to Congress and the 
taxpayer.
    There is one party in this process that did cooperate with 
the committee, and that is KBR. KBR has provided the documents 
we asked for, gave a briefing to committee staff and agreed to 
testify here today, and they took these steps even though they 
knew that I have been outspoken about my concerns about other 
KBR projects in Iraq.
    Despite the obstacles we faced, today's hearing will raise 
important questions about the Embassy project. Witnesses will 
describe evidence of substandard labor conditions and shoddy 
construction work. Internal cables will reveal a Department at 
war with itself.
    My goal is to use this hearing to begin to sort through the 
claims and counterclaims that envelope the Embassy project. We 
won't answer every question that has emerged about this 
secretive project, but if we can shed more light on some, we 
will be doing our job.
    I hope the Embassy project opens on time and under budget, 
but real questions about the project are being asked and these 
need to be addressed.
    This is an unusual hearing in that it is being held as a 
joint hearing of the full committee and its National Security 
Subcommittee. The hearing is being held jointly in recognition 
of the extensive work that the subcommittee has been doing for 
the past several months to examine the allegations of human 
trafficking by First Kuwaiti.
    For this reason, after Ranking Member Davis is recognized 
for his statement, Subcommittee Chairman Tierney and 
Subcommittee Ranking Member Shays will be recognized for their 
opening statements, and then we will go directly to the 
witnesses.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

[GRAPHIC] [TIFF OMITTED] 43507.001

[GRAPHIC] [TIFF OMITTED] 43507.002

[GRAPHIC] [TIFF OMITTED] 43507.003

[GRAPHIC] [TIFF OMITTED] 43507.004

[GRAPHIC] [TIFF OMITTED] 43507.005

[GRAPHIC] [TIFF OMITTED] 43507.006

[GRAPHIC] [TIFF OMITTED] 43507.007

[GRAPHIC] [TIFF OMITTED] 43507.008

    Chairman Waxman. Mr. Davis.
    Mr. Davis of Virginia. Thank you, Mr. Chairman.
    In my opinion, this could have been a good hearing. It 
could have been a thoughtful examination of how the State 
Department's Overseas Building Operations Office constructs 
diplomatic facilities under difficult conditions in some of the 
most inhospitable parts of the world.
    It could be a responsible assessment of incidental and 
systematic problems encountered by an ambitious program to 
build more secure embassies, particularly the effort to 
complete the State's largest single project ever in Baghdad, 
Iraq, in the middle of a war zone. It could, but I am afraid it 
won't.
    Why? Because, as I think the chairman would acknowledge, 
this hearing is a little bit premature.
    Based on media reports alone, the committee scheduled 
today's testimony before completing a thorough investigation of 
thinly sourced, sensationalized charges of shoddy construction 
and labor abuses.
    In what has become an unfortunate modus operandi, 
politically charged allegations are marching miles ahead of the 
proven facts. Whenever a news story jumps to a convenient 
conclusion to back suspected administration malfeasance or 
misconduct, the committee rushes to see how they can elevate 
mere questions, concerns and speculation before the real fact-
finding.
    As I have said before, it is oversight by firing squad. 
Ready. Fire. Aim.
    The most significant waste, fraud and abuses we are likely 
to uncover today may be our own. So what are we really aiming 
at today?
    The allegations of waste, fraud and abuse at the new U.S. 
Embassy in Iraq cited in today's hearing title are based 
primarily on an exchange of State Department cables detailing a 
dispute over an entirely separate construction project, the 
security camp adjacent to the Embassy, a completely separate 
contract. Both projects were built by the same contractor, 
First Kuwaiti General Trading and Contracting, but the camp was 
designed as a temporary collection of prefabricated trailers 
and support structures while the 592 million Embassy compound 
involved full-scale construction of permanent buildings.
    In the short time we have had to pursue claims of 
substandard materials and practices, we found nothing to 
suggest the intramural spat over who is responsible for 
expanding and changing design elements at the temporary camp 
has any implications whatsoever on the quality of work at the 
permanent Embassy.
    But here is a fact that does have an impact on the risk of 
waste, fraud and abuse. Both projects were built under firm 
fixed-price contracts, the kind the majority generally prefers. 
First Kuwaiti got the work only after no U.S. contractor 
offered to meet the ambitious 24 month schedule while facing 
substantial financial and logistical risks, building in a war 
zone on those terms. They wanted a cost reimbursement 
arrangement.
    Under the fixed price vehicle, disputes over electrical 
wiring loads and dripping pipes can have little impact on 
ultimate costs. In effect, we are here litigating a punch list, 
the usual inventory of fixes and finishing touches generated by 
any project this size.
    Allegations about labor abuses and human trafficking 
violations are far more serious, and it appears the State 
Department took them seriously. We can be proud of U.S. labor 
protection but shouldn't be naive about the applications 
elsewhere in the world.
    Nevertheless, complaints about working and living 
conditions were referred to the State Department Inspector 
General who, in conjunction with the IG for the Multi-National 
Forces in Iraq, conducted onsite inspection and interviews with 
foreign workers and U.S. personnel. The State IG team found 
``nothing that caused us to believe that trafficking in persons 
violations had occurred at the site.''
    The military IG did find illegal and deceptive hiring 
practices by recruiting agencies, but it found no evidence of 
the alleged abduction, abuse, overcrowding or unsanitary 
facilities. In fact, the MNF-I IG concluded of the 58 living 
areas inspected, the State Department facility ``rated in the 
top third with above average quality of life conditions.''
    Against those findings, we have claims by disgruntled ex-
employees who may have pending or potential financial interests 
against the Government. Their accusations should be evaluated 
very carefully, something we have not had the opportunity to 
do. They may sound atrocious. Someone saw passports in a safe 
or boarding passes marked Dubai on a flight to Iraq.
    But today we will get one side of the story. Only further 
inquiry will tell us if the passports were stored voluntarily 
or whether anyone boarding a charter flight in Kuwait was 
confused about its destination.
    Another reason not to take these allegations at face value 
is that they have been thrown at an extraordinarily effective 
Federal agency. Under the leadership of General Charles 
Williams, the State's Bureau of Overseas Building Operations 
has completed 47--47--new, secured diplomatic facilities in 6 
years on schedule and all within budget. He brings 
unimpeachable credentials to a difficult job, coming out of 
retirement at the request of his friend, Colin Powell.
    After logging 2,000 flight hours in helicopters in Vietnam, 
General Williams finished a 29 year Army military career 
successfully, completing major construction projects with the 
Corps of Engineers. He knows how to build. He has proven his 
dedication, his skill and his integrity.
    I question whether we will prove anything else here today. 
Nevertheless, I thank the witnesses for their time and 
perspectives.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.009
    
    [GRAPHIC] [TIFF OMITTED] 43507.010
    
    Chairman Waxman. Thank you, Mr. Davis.
    Mr. Tierney, the chairman of the subcommittee.
    Mr. Tierney. Good morning and thank you, Mr. Chairman. I 
want to thank you and Ranking Member Davis for allowing the 
National Security and Foreign Affairs Subcommittee to jointly 
hold this hearing.
    There are many questions raised by the construction of this 
enormous 65 acre, 24 building walled fortress of an Embassy in 
Iraq.
    What will it mean to Iraqis? Will most Iraqis react like 
one quoted recently in the Los Angeles Times article, who said 
they are not leaving Iraq for a long time, and he called the 
Embassy a symbol of oppression and injustice?
    What purpose does an Embassy serve if nearly 1,000 of the 
State Department officials are only rarely permitted to 
interact with Iraqis outside the Green Zone, an essential part 
of their job, as questioned by the American Foreign Service 
Association, the professional body representing State 
Department employees?
    What does it mean that our military is planning on co-
locating at the Embassy site and how will this be interpreted?
    Is this reminiscent of the even larger Somalia compound 
that was dismantled by looters after the overthrow of the 
dictator, Mohamed Siad Barre, and does it foretell the planned 
Lebanon Embassy now said to be located in the heart of 
Hezbollah-controlled territory?
    Is it bigger than it should be if you really expect Iraq to 
stabilize and not as big as it needs to be for the nerve center 
of an ongoing war effort, as the L.A. Times quotes a State 
Department advisor and Council on Foreign Relations senior 
fellow as saying?
    But the purpose of our hearing today is to look at the 
construction of the Embassy itself. Our new Iraq Embassy is not 
only our most expensive Embassy to date. It is also supposed to 
become a beacon of freedom and democracy in Iraq and throughout 
the Middle East.
    Still, as Chairman Waxman has noted, very troubling 
allegations have come to the subcommittee's attention that this 
proposed beacon of freedom was built quite literally on the 
backs of workers from Nepal, the Philippines, Pakistan, India 
and Ghana, just to name a few nations.
    We have heard allegations that some third country nationals 
working for the prime contractor, First Kuwaiti, had to pay 
recruitment fees amounting to more than a full year of salary, 
fees as high as $3,000 with salaries as low as $7 a day.
    We have heard of workers, essentially waylaid to Iraq, 
being told they were going to work in Dubai and given boarding 
passes to Dubai but being transported instead to Iraq.
    We have heard of verbal abuse, physical assaults and 
physical intimidation, the First Kuwaiti managers brandishing 
weapons.
    We have heard of workers living a dozen or two dozen or 
even more in a single trailer measuring 40 feet by 10 feet. 
That would essentially be the breadth of this two rows of seats 
and about the width as well.
    We have heard of inadequate medical care, of a lack of 
safety training and equipment and about deaths not adequately 
explained.
    We have heard of workers unable to return home whether 
because their passports were withheld or because of threats or 
because they faced a year's salary penalty if they resigned. I 
might note that the withholding of passports by employers is an 
act forbidden by the U.S. Government.
    Our first panel today consists of former workers from the 
Embassy site who will tell us what they themselves have heard 
and seen. We take these allegations very seriously.
    Unfortunately, however, it appears that not everyone may 
have done so. We have learned during the course of our 
investigation that a number of officials in our own State 
Department may have looked the other way when confronted with 
these disturbing or inconvenient allegations.
    Our State Department is supposed to be the face of U.S. 
diplomacy to the world. Unfortunately, when it appears that 
when it came to the workers used to construct our flagship 
Embassy in Iraq, some State Department officials may not have 
kept their eyes wide open. For example, it has become clearer 
and clearer that little to no forethought on labor issues had 
been done during the contract award and in the vetting of First 
Kuwaiti.
    It appears that State Department officials have largely 
taken a hands-off approach with respect to First Kuwaiti's 
relations with its third country workers, and we have heard 
about the State Department's own Office to Combat Human 
Trafficking pressing for action from General Williams and from 
other top officials in the Bureau of Overseas Building 
Operations and from the State Department Inspector General and 
receiving what can only be described as the cold shoulder.
    We have a State Department Inspector General who reportedly 
allowed First Kuwaiti itself to select the workers to be 
interviewed, an Inspector General who apparently didn't even 
interview those alleging abuses and an Inspector General who 
didn't use interpreters despite the fact that only 10 percent 
of the worker population was fluent in English.
    I sincerely hope that what we hear today from our State 
Department witnesses dispels and explains those troubling 
stories our investigation has uncovered. I hope we hear that a 
strict adherence to on time and on budget does not mean the 
trampling of workers' rights and dignity.
    It is important that all of us in the U.S. Government 
recognize that our words and our actions matter. Our words and 
our actions matter both because others in the world are 
watching us and listening to us but even more importantly 
because they reflect on who we are and who we should constantly 
be striving to become.
    Thank you again, Mr. Chairman.
    [The prepared statement of Hon. John F. Tierney follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.011
    
    [GRAPHIC] [TIFF OMITTED] 43507.012
    
    Chairman Waxman. Thank you, Mr. Tierney.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, when it comes to U.S. citizens and 
foreign nationals working in our embassies abroad, there is 
absolutely no question that their safety and security must be 
our top priority, and we also have the significant 
responsibility to examine alleged waste, abuse and fraud in 
Government. We need to look at the State Department and its 
contractors in the construction of the new $600 million U.S. 
Embassy in Baghdad.
    I support today's oversight efforts. Unfortunately, what we 
have today is potentially a one-sided discussion about 
allegations found in some recent articles and Internet blog 
entries. In terms of preparation and research, the minority 
staff have been rushed through more than a half dozen 
interviews this week, many of which were given with just 5 
minutes notice of, and just last night the committee still had 
not received key documents from the Department of State.
    So although the facts are still muddled, this is what we do 
know. A recent construction guard camp near to but separate 
from the Baghdad Embassy is running on schedule. It appears 
there were some electrical problems, but it is still not clear 
whether it was these problems that resulted in a temporary 
delay in the occupation of the camp or other construction and 
installation deficiencies.
    On the one hand, we hear from the Department of State the 
project is currently on schedule and within budget. On the 
other hand, we hear from contractors and whistleblowers that 
the construction is suffering massive problems with the fuel 
tank, sprinklers, air conditioning, heating and electrical 
system among other things.
    In reality, this is a complex, high-risk project in a war 
zone, so certainly there will be some issues with the building 
system. But we are still lacking hard evidence to make any 
assessments.
    The other side of today's hearing is allegations of 
potential human trafficking and labor abuses. We cannot take 
lightly these allegations of human trafficking and labor 
abuses. Human trafficking is modern day slavery and something 
that affects every nation on every continent around the globe, 
including the United States, and we must put an end to it 
wherever we find it.
    In 2000, my fellow members and I drew a line when we passed 
the Trafficking Victims Protection Act making human trafficking 
a Federal crime. Between 2001 and 2006, the Department of 
Justice has prosecuted over 360 defendants, secured 238 
convictions and guilty pleas, and had opened 639 new human 
trafficking investigations. That is how seriously the United 
States takes this issue.
    So it makes sense when individuals, some of whom are here 
today with us, raise concerns about possible labor abuses or 
inhumane conditions, the Trafficking in Persons Office in the 
Department of State and the Inspector Generals from the Multi-
National Force-Iraq quickly took action, observing the 
employees, interviewing workers and inspecting facilities on 
the site in Baghdad. In fact, the State and MNF-Iraq Inspector 
Generals in their three reviews did not find anything to 
indicate human trafficking violations had occurred.
    However, serious questions about possible illegal and 
deceptive hiring practices by recruiting agencies are still 
being pursued, and it is reported the Department of Justice has 
recently opened their own human trafficking investigation to 
pursue these allegations.
    I commend each of these agencies for taking this matter 
seriously and continuing with their investigation.
    I look forward to today's hearing but wish we had more 
information and had spent more time preparing this 
investigation before commencing this hearing. Nevertheless, I 
do appreciate the opportunity to participate in today's hearing 
and thank each of the witnesses for providing their testimony 
for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.013
    
    [GRAPHIC] [TIFF OMITTED] 43507.014
    
    Chairman Waxman. Thank you very much, Mr. Shays.
    I want to now call forward our first witnesses, Mr. Karl 
Demming. He is the engineering and construction manager of KBR.
    Mr. Demming, we are pleased to have you with us today to 
testify and to give us your analysis of what has been 
happening.
    It is the policy of this committee that all witnesses that 
testify take an oath, so I would like to ask you, if you would, 
to please stand and raise your right hand.
    [Witness sworn.]
    Chairman Waxman. The record will indicate that you did 
answer in the affirmative.
    Mr. Demming, your prepared statement is going to be in the 
record in its entirety. What I would like to ask you to do is 
to give your testimony.
    We do try to keep the oral testimony to around 5 minutes. I 
am going to have a clock. It will be green, but then it will 
turn orange when it indicates you have 1 minute left and then 
red when the time is up.
    If you feel you need to go over to summarize it, fine, but 
we do want all witnesses to try to keep within the timeframe, 
so we can hear from everybody.
    We are happy to have you here.
    There is a button on the base of the mic. Be sure it is 
pushed in, so it is activated. When you have done that, I want 
to recognize you to proceed.

    STATEMENT OF KARL DEMMING, ENGINEERING AND CONSTRUCTION 
                          MANAGER, KBR

    Mr. Demming. Thank you, Mr. Chairman.
    My name is Karl Demming. I am currently employed as a 
technical professional leader, Specialties for KBR in Baghdad 
in support of USMI, the U.S. Mission in Iraq.
    Under the LOGCAP contract, I oversee KBR's engineering and 
construction work in Iraq. I arrived in-country soon after the 
invasion in 2003. I have been on the ground there ever since.
    I am a participating electrician, practicing, and have been 
a member of the International Brotherhood of Electrical Workers 
for more than 30 years.
    You asked KBR to assist the committee in its inquiry 
regarding the Baghdad Embassy security force guard camp, and I 
am here to do so. The guard camp and the new Embassy are being 
constructed by another contractor. KBR did not design or 
construct either one. Once the guard camp is complete, KBR will 
provide support services to the personnel who will be housed 
there.
    I am a native Californian. I grew up in Burbank, went to 
Burbank High and later the Los Angeles Trade Technical School. 
I joined the U.S. Army in 1971 and returned to Burbank after my 
tour of duty.
    I began work in the electrical field in 1975 and in the 
course of my career have had the opportunity to work in many 
aspects of this field, for example, power generation for the 
Federal Aviation Administration and the Marine Corps and 
electrical systems and construction positions for International 
Controls, Carnation, Lockheed, and Anheuser Busch.
    I have held State of California electrical and HVAC, 
heating-ventilation-air conditioning, contractors licenses and 
an L.A. city supervisor's license. I also owned and operated my 
own electrical firm. I worked on a wide variety of projects 
where the IBEW supplied the work teams.
    I was a member of the National Guard from 1975 through 
1997, and I volunteered for the Gulf war and served in Saudi 
Arabia, Iraq and Kuwait as a staff sergeant with the Guard.
    I moved to Denver soon after leaving active duty and worked 
on multiple construction projects at Denver International 
Airport. At night, I also taught the IBEW's electrical 
apprenticeship program.
    I began working for KBR in May 2003. After an initial 
assignment in Basra, I began working in Baghdad on several 
power generation projects related to the U.S. Embassy Annex. In 
November 2006, I was promoted to my current position.
    Under the LOGCAP contract, KBR provides a variety of 
support functions to the United States and Coalition personnel 
in Iraq and Afghanistan. As part of that work, every day KBR 
provides meals, laundry and other support services throughout 
theater. Specific to today's discussion, KBR was asked to 
prepare to provide similar services at the Baghdad Embassy 
security force camp.
    As I mentioned before, KBR did not design or construct 
either the guard camp or the new Embassy compound, but as the 
company prepared to support personnel at the guard camp, KBR 
participated in several site visits and was asked to conduct a 
technical inspection of the facilities. This is not unlike 
having an inspection done before buying a house.
    My team and I carried out these inspections, and earlier 
this week, at the committee's request, I briefed the 
committee's bipartisan staff on our findings. I am here today 
to answer any questions you may have.
    [The prepared statement of Mr. Demming follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.015
    
    [GRAPHIC] [TIFF OMITTED] 43507.016
    
    [GRAPHIC] [TIFF OMITTED] 43507.017
    
    [GRAPHIC] [TIFF OMITTED] 43507.018
    
    Chairman Waxman. Thank you very much for your testimony. I 
have questions, and I know other Members will as well. We are 
going to proceed recognize Members 5 minutes at a time.
    The Iraq Embassy is the largest construction project at the 
State Department. It has a price tag of $600 million, and its 
successful completion is an essential part of the 
administration's strategy for Iraq.
    The first part of this mammoth project to be completed was 
a base for the security guards. It was delivered to the Embassy 
this spring by the prime contractor, First Kuwaiti, with the 
assurance that it meets and exceeds contract requirements.
    My understanding is that KBR was hired by the State 
Department to run the guard base and prepare meals for the 
guards. As a result, KBR entered the facility after it was 
turned over to the Embassy to see how the equipment was 
operating.
    Mr. Demming, I want to ask you about the problems KBR found 
in the construction of the guard base when you tested the 
facility.
    I understand you were part of a KBR team that was involved 
with the process of starting up the dining facility in the 
guard camp after First Kuwaiti finished assembling it, is that 
right?
    Mr. Demming. That is correct, Mr. Chairman.
    Chairman Waxman. On May 25th, the Embassy sent a cable back 
to Washington to the Overseas Business Operations Office or OBO 
that described some of the problems you encountered with the 
process. I would like to make this cable part of the record 
today and without objection that will be the order.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.019
    
    [GRAPHIC] [TIFF OMITTED] 43507.020
    
    [GRAPHIC] [TIFF OMITTED] 43507.021
    
    [GRAPHIC] [TIFF OMITTED] 43507.022
    
    [GRAPHIC] [TIFF OMITTED] 43507.023
    
    [GRAPHIC] [TIFF OMITTED] 43507.024
    
    Chairman Waxman. Paragraph three of the Embassy cable says 
that on May 14th, KBR was in the process of initiating the 
dining facility when the wires began to melt, is that right?
    Mr. Demming. That is correct, Mr. Chairman.
    Chairman Waxman. Paragraph four of the cable states that 
some of the appliances were not working properly and there was 
a burning smell. It also says that the staff received 
electrical shocks. In your opinion, was this a serious safety 
issue and why?
    Mr. Demming. Yes, Mr. Chairman, it was a serious safety 
issue. I will explain why as layman as I possibly can.
    The grounding issues and the personnel injury as far as 
coming in contact with any of the metal equipment such as 
commercial type cooking equipment and such in the facility as 
well as the type of facility it is. They are trailers or 
modular units, and they are steel or metal of construction.
    Chairman Waxman. At that point, the cable says you had shut 
off all the equipment and could not serve any meals.
    Paragraph seven of the Embassy cable states the initial 
assessment by the KBR electricians was that the gauge of the 
electrical wiring is too small for the electrical load required 
and that most if not all of the wiring will need to be 
replaced.
    It then says a followup inspection by KBR identified 
additional electrical issues that required corrective action.
    Can you tell us more about the problems you found?
    Mr. Demming. Yes, sir, Mr. Chairman. In regards to the 
electrical cable, the equipment that this cable was feeding, we 
call them circuits and they are protected by over-current 
devices. The system does not work properly if it is not 
designed properly.
    We did not have the design drawings or plans at that time. 
So we were merely there to assist in starting this facility up, 
so we can serve the first meal on May 15th.
    During that time, these issues arose and we did have 
personnel that were getting shocked or electrocuted mildly at 
the facility. We did shut the power off to investigate and 
assist the contractor, Overseas Building Office, to find these 
issues and try to remedy them.
    Chairman Waxman. Well, the cable mentions problems with the 
grounding, electrical feeds, split wiring, wiring not contained 
in junction boxes.
    Paragraph 11 of the Embassy cable states that on May 24th, 
10 days after the meltdown, OBO said the wiring had been 
corrected. You came back on May 25th, the next day, but you 
still found continuing concerns with the wiring, according to 
the cable.
    How can it be that OBO thought it had fixed the problems 
when it really hadn't?
    Mr. Demming. Mr. Chairman, we don't monitor what those, 
that entity does out there on that camp. We are directed by our 
client--at that time it would be the U.S. Army--to perform 
these tasks and only upon direction do we actually act.
    Chairman Waxman. Well, the wiring failed once. First 
Kuwaiti fixed it, and OBO checked it, but there were still 
problems if what you are telling us is right, something appears 
to be seriously wrong with the management and oversight of this 
project. This doesn't mean that the rest of the Embassy project 
will be plagued by similar problems, but it obviously raises a 
major red flag.
    The State Department said the guard base was fine, that it 
met and exceeded requirements. It turned out to be a fiasco. 
The $600 million question is whether we are going to discover 
the same kinds of problems when the Embassy is turned over to 
the State Department this fall.
    I want to recognize Mr. Shays for 5 minutes as well.
    Mr. Shays. Mr. Demming, first, you deserve a tremendous 
thanks for serving your country by serving overseas in Iraq for 
so long in your capacity with KBR, and I thank you for that.
    Mr. Demming. Thank you, Congressman.
    Mr. Shays. What I want to do is just be clear. We are not 
talking about the $600 million Embassy. We are talking about a 
temporary camp designed to house workers who would work on the 
$600 million Embassy, is that correct?
    Mr. Demming. To my understanding, Mr. Congressman, that 
BESF was the Baghdad security force camp.
    Mr. Shays. Is the answer yes?
    Mr. Demming. This would be for the security force.
    Mr. Shays. What you are talking about now is a facility 
that is temporary, designed to hold the security forces or the 
workers or whatever, correct?
    Mr. Demming. Correct.
    Mr. Shays. OK. We are not talking about a permanent Embassy 
problem, correct?
    Mr. Demming. This does attach to the big Embassy campus 
itself.
    Mr. Shays. I am not trying to suggest that we should have 
problems in a temporary facility, but I want us to make sure we 
are not mixing the two right yet.
    Now it is my understanding that the OBO, the Overseas 
Building Operations, is a State Department agency that had 
basically written out the specs for this temporary facility and 
that when KBR got there, they felt that the facility was not 
adequate, is that not true?
    Mr. Demming. That would take some explanation, Mr. 
Congressman.
    Mr. Shays. Well, first off, isn't it true that this was a 
facility that was built according to the specs of the State 
Department and when KBR got there, they said this isn't going 
to be able to handle all that we need? Isn't that true?
    Mr. Demming. Can I explain to that?
    Mr. Shays. Well, first off, tell me if it is true or not 
and then explain.
    Mr. Demming. That is true.
    Mr. Shays. OK, now explain.
    Mr. Demming. OK. What the issues were when KBR was asked to 
perform operation and maintenance logistic services at the 
guard camp itself, we have certain equipment and support 
mechanics that require trucks, fire trucks, fuel trucks and 
etc. At that time, we did not have a lot of information.
    Mr. Shays. I need a shorter version. The bottom line is are 
you trying to say they should have known that it was not going 
to be adequate?
    Mr. Demming. No, sir. We could not get our equipment in 
there to perform that O&M. That was our pushback.
    Mr. Shays. Are you a witness today to have evidence about 
the Embassy itself and that the Embassy itself has major 
construction problems?
    Mr. Demming. No, Mr. Congressman.
    Mr. Shays. Your thrust today is just to say there may be 
indication of some problems with the full Embassy because there 
are problems with this temporary site or are you just here 
because you were requested to be? What is your motivation for 
being here?
    Mr. Demming. I was requested to be here or asked to be 
here, Mr. Congressman, to explain the difficulties and issues 
at the security force camp.
    Mr. Shays. Temporary site, OK.
    In your work in the United States, is this sometimes what 
is built sometimes doesn't meet the need of the person, of the 
client? Is this unusual?
    Is this event unusual, what you are encountering, what you 
encountered in Iraq?
    Mr. Demming. Comparing to Iraq, it is a very volatile 
environment. Unusual, I would say no, sir.
    Mr. Shays. Thank you very much, sir.
    Mr. Davis of Virginia. Do you have a second?
    Mr. Shays. Yes, I would be happy to yield to my colleague.
    Mr. Davis of Virginia. Is the problem here with the specs 
or is the problem with the construction?
    Mr. Demming. Mr. Congressman, KBR was never privy to the 
specifications that this entity was built by. We were going by 
the Unites States national electrical codes and some of the 
national building codes, the UBC and the UMC.
    Mr. Davis of Virginia. So you don't have any information 
that the construction didn't meet the specs and there might 
have been a problem with the specs.
    Mr. Demming. That is correct.
    Mr. Davis of Virginia. You don't have any information that 
there is anything wrong in the construction at the Embassy at 
all, do you?
    Mr. Demming. That is correct.
    Mr. Davis of Virginia. Thank you.
    Chairman Waxman. Mr. Cummings.
    Mr. Cummings. Thank you very much. I want to thank you, Mr. 
Demming, for being with us today.
    Did I understand you correctly when you said that you are 
an electrician?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Cummings. How long have you been that?
    Mr. Demming. Over 30 years, Mr. Congressman.
    Mr. Cummings. Now, Mr. Demming, I understand that after the 
wires melted at the guard camp, is that true? They melted?
    Mr. Demming. Yes, sir, Mr. Congressman.
    Mr. Cummings. Let me see if we can connect some dots here. 
After they melted, the Embassy asked KBR to conduct a technical 
inspection of the entire guard camp electrical system, is that 
correct?
    Mr. Demming. Yes, sir.
    Mr. Cummings. Were you a part of that in any way?
    Mr. Demming. Yes, I was, Mr. Congressman.
    Mr. Cummings. Mr. Chairman, I have a copy of KBR's report 
dated May 25, 2007, which I ask to be made a part of the 
hearing record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.025
    
    [GRAPHIC] [TIFF OMITTED] 43507.026
    
    [GRAPHIC] [TIFF OMITTED] 43507.027
    
    [GRAPHIC] [TIFF OMITTED] 43507.028
    
    [GRAPHIC] [TIFF OMITTED] 43507.029
    
    [GRAPHIC] [TIFF OMITTED] 43507.030
    
    [GRAPHIC] [TIFF OMITTED] 43507.031
    
    [GRAPHIC] [TIFF OMITTED] 43507.032
    
    [GRAPHIC] [TIFF OMITTED] 43507.033
    
    [GRAPHIC] [TIFF OMITTED] 43507.034
    
    [GRAPHIC] [TIFF OMITTED] 43507.035
    
    [GRAPHIC] [TIFF OMITTED] 43507.036
    
    Mr. Cummings. Mr. Demming, this report says that it is from 
Paul Chretien. Do you know him?
    Mr. Demming. Say that again.
    Mr. Cummings. I probably pronounced his name wrong. Paul C-
H-R-E-T-I-E-N.
    Mr. Demming. Chretien.
    Mr. Cummings. Yes. Who is he?
    Mr. Demming. He is my electrical engineer. He works on my 
staff.
    Mr. Cummings. All right, so he works, he is under you?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Cummings. All right. On page 1 of this report, it lists 
``areas of concern'' and it says this: ``One of the greatest 
areas of concern is the use of counterfeit wire,'' which refers 
to a wire found which has a particular wire size printed on the 
insulation but actually has smaller, lower capacity conductors, 
is that right?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Cummings. Did you actually obtain samples of the 
counterfeit wire?
    Mr. Demming. Yes, that is correct, Mr. Congressman.
    Mr. Cummings. Now that word, counterfeit, that is a pretty 
strong word, isn't it?
    Mr. Demming. Yes, it is.
    Mr. Cummings. In other words, it implies that somebody did 
something wrong, is that right? In other words, that is not 
proper, is that right?
    Mr. Demming. That is correct.
    Mr. Cummings. How did you determine what the size of the 
wire in the insulation was?
    Mr. Demming. When the team was inspecting on that technical 
inspection through the panels to further meet the needs of the 
direction that we received, they identified that first by 
looking at the cable that was installed. Further investigation, 
we found that the cable was marked, and on that cable marking 
it was marked for the required cable size.
    As further investigation went, the copper diameter size of 
the conductors inside the multi-conductor cable was thought to 
be smaller than what the stamped rating was on the jacket.
    Mr. Cummings. So, in other words, even if the 
specifications had asked for a certain thing, when you went to 
look at the wire, even if the specifications asked for it, the 
proper wire was not there, is that correct?
    Mr. Demming. That is correct.
    Mr. Cummings. I believe we have a picture of the 
counterfeit wires you found. Can we please display that on the 
screen?
    Where did you find this wire in the camp?
    Mr. Demming. This cable was at, this particular cable was 
going to the fryers from a panel inside the DFAC, the dining 
facility.
    Mr. Cummings. What problems might result from the use of 
such a counterfeit wire?
    Mr. Demming. Well, they might melt.
    Mr. Cummings. As they did.
    Mr. Demming. Correct.
    Mr. Cummings. After you did your report to the Embassy, the 
Embassy wrote this cable to OBO, and here is what they said: 
``Several additional issues have arisen including discovery of 
counterfeit wire.''
    So they reported what you found to Washington.
    Now I want to show you what Washington said in response. 
This was written on June 7th, and I ask that it be entered into 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.037
    
    [GRAPHIC] [TIFF OMITTED] 43507.038
    
    [GRAPHIC] [TIFF OMITTED] 43507.039
    
    [GRAPHIC] [TIFF OMITTED] 43507.040
    
    [GRAPHIC] [TIFF OMITTED] 43507.041
    
    Mr. Cummings. The cable said this: ``We have also asked KBR 
and Post to identify any counterfeit wire and its location and 
they have not been able to do so.''
    Mr. Demming, first of all, did you understand what I just 
said?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Cummings. I am asking you, Mr. Demming. Did anyone at 
OBO ever ask you about the counterfeit wire you found?
    Mr. Demming. No, Mr. Congressman.
    Mr. Cummings. Did anyone at OBO ask anyone on your team 
about it to your knowledge?
    Mr. Demming. Mr. Congressman, to my knowledge, no.
    Mr. Cummings. Do you know why OBO would claim in this cable 
that they asked you for this when they didn't? Do you know?
    Mr. Demming. No, I do not know that.
    Mr. Cummings. One of the documents that the committee 
subpoenaed is a fire safety inspection report of the Embassy 
complex itself. We understand that this inspection report 
documents a number of serious safety risks similar to those 
that KBR found at the guard base, but the State Department 
won't turn this document over to the committee.
    That is not a good sign. Covering up serious safety 
problems at the Embassy does not make them go away.
    Again, this word, counterfeit, is very significant, is it 
not?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Cummings. Thank you very much.
    Chairman Waxman. Thank you, Mr. Cummings.
    Mr. Davis.
    Mr. Davis of Virginia. You showed the cable, this 
counterfeit cable, whatever, to the Embassy Post, is that 
right?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Davis of Virginia. There is an inherent conflict 
sometimes between the Embassy Post and OBO in terms of what the 
specs should be. Everybody, they always are asking to try to 
get greater capacity, better walls, better flooring. In my 
experience, that has been true. They always want a little more 
and the State Department, to put these things on time and under 
budget, has certain specs.
    Do you have any evidence that this wire did not meet the 
specs?
    Mr. Demming. No, Mr. Congressman. I never saw the specs.
    Mr. Davis of Virginia. I think that is the nub of the 
matter. I think what we have here is that if you looked at 
American standards in a permanent facility, you would have 
looked for a different kind of wiring that would have supported 
what you were trying to put in.
    This was a temporary facility. The specs that were written 
were one thing, and maybe they should have been something else.
    I am not an expert in this area, but what I am looking for 
is evidence that the construction here was, in fact, 
counterfeit which would mean they represented it would be one 
thing and it was something else versus what the specifications 
called for since this was a temporary facility.
    I don't know what the specs called for and we can ask this 
in our next panel.
    You don't know what the specs called for, do you?
    Mr. Demming. No, Mr. Congressman, I do not.
    Mr. Davis of Virginia. Thank you.
    I mean I think that is the point we are trying to get at is 
they have made a leap over here without looking at the 
underlying specifications in the contract. This was a temporary 
facility. They had a budget.
    Do you have any evidence that this would not have met, 
well, let me just ask this.
    What capacity did the customer require for its dining 
facility? Do you know how many people they were trying to feed 
there?
    Mr. Demming. There was 1,200 personnel that were to live on 
that guard camp, and they served three meals a day.
    Mr. Davis of Virginia. What organization is KBR's customer 
for the O&M contract to operate the guard camp?
    Mr. Demming. Can you repeat that, Mr. Congressman?
    Mr. Davis of Virginia. What organization is your customer 
on the O&M contract to operate the guard camp? Who are you 
working for?
    Mr. Demming. The U.S. Army.
    Mr. Davis of Virginia. So your contract was with the U.S. 
Army, and this was a State Department facility.
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Davis of Virginia. Now what capacity does that customer 
require for its dining facility?
    Mr. Demming. Capacity as in personnel?
    Mr. Davis of Virginia. Yes.
    Mr. Demming. There is 1,200 personnel.
    Mr. Davis of Virginia. Is that capacity different from the 
capacity the dining facility was built to support?
    Mr. Demming. I do not believe so, Mr. Congressman.
    Mr. Davis of Virginia. Some have said that the reason for 
the problems with the wiring in the dining facility was caused 
by KBR installing more equipment than the facility was designed 
to accept. Now what is your view on that?
    Mr. Demming. That is not true.
    Mr. Davis of Virginia. But you haven't seen the specs.
    Mr. Demming. I have not seen the specifications, Mr. 
Congressman, but most of the kitchen equipment, commercial type 
kitchen equipment, was already installed not by KBR.
    Mr. Davis of Virginia. Right. Now OBO says they repaired 
the damage soon after and that the wiring issue was resolved, 
is that correct?
    Mr. Demming. Those were the readily identified issues on 
May 14th that they resolved.
    Mr. Davis of Virginia. Did they resolve those issues?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Davis of Virginia. Pretty quickly?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Davis of Virginia. Is the dining facility that you 
inspected capable of handling the capacity required by your 
customer?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Davis of Virginia. What improvements need to be made to 
the dining facility in order to meet your customer's capacity 
requirements or are they already done?
    Mr. Demming. In our contract and according to preventive 
MED issues and some of the Army regulations, we are required 
certain things to happen as far as how hot the water must be, 
how much water we must have to properly sanitize and wash the 
dishes. The food storage, we are required in some instances to 
maintain several days of storage because of the environment 
that we are in.
    Situations like that, Mr. Congressman, are required that we 
brought to the attention that facility did not meet.
    Mr. Davis of Virginia. Did you have concerns about your 
contractual liability for the dining facilities during the 
contract for the camp?
    Mr. Demming. Just when we were asked to do the O&M services 
is when we brought up those concerns.
    Mr. Davis of Virginia. Do you know if KBR submitted an 
offer to build the Embassy compound?
    Mr. Demming. No, I do not know that, Mr. Congressman.
    Mr. Davis of Virginia. But once again just to clarify, you 
have no knowledge or no relationship between what was done at 
the Embassy itself versus this separate contract for the dining 
facility, is that correct, temporary facility?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Davis of Virginia. OK. Thank you very much.
    Mr. Tierney [presiding]. Thank you.
    Ms. Watson, you are recognized for 5 minutes.
    Ms. Watson. Thank you so much and thank you, Mr. Demming, 
for being here.
    In the OBO's cable responding to the Embassy's concerns, 
they essentially blame you at KBR for all of these problems, 
and I would like to have you respond to some of the statements.
    The basic argument seems to be that after the camp was 
turned over, KBR came in and added a lot of extra equipment 
that was never intended to be there. So let me read you what 
the OBO's cable actually says, and it is in paragraph three.
    It says this was a problem created solely by Post and KBR 
by putting additional equipment in the facility and not 
checking the electrical loads.
    The cable also says all such equipment appeared to be 
larger, higher power requirement than the manufacturer had 
intended based on our original specifications. This is the real 
reason for the facility overheating.
    So what is your response to that claim?
    Mr. Demming. Ms. Congresswoman, we did not provide any 
extra equipment to the kitchen facility other than the 20 foot 
by 8 foot container for a chiller or cooler unit which was 
placed outside the dining facility and wired to a separate 
circuit system as well as 20 by 8 foot container utilized as a 
freezer container. Those two items were brought over from the 
previous camp where the guards are living now, Camp Jackson, in 
order to store food there in preparation to move the guards 
over to the new camp and provide DFAC services by May 15th.
    Ms. Watson. Can you stipulate to that, the equipment that 
you brought in and the reason?
    Mr. Demming. Yes, ma'am. The equipment that we brought in 
was specifically for the additional food that was required and 
to start the DFAC services on May 15th.
    Ms. Watson. Is there a work order that would state that in 
writing? Was there a work order?
    Mr. Demming. There was some. There would had to have been a 
work order for us to do that, Ms. Congresswoman, and on the e-
mail traffic, I have just been handed, from First Kuwaiti, on 
one of their preparations for a billing statement, they do 
include adding an existing chiller to be moved from the triple 
canopy camp and add existing freezer to be moved from the 
triple canopy camp. They were aware that these two items needed 
to be brought over and in working condition in order to meet 
the May 15th inaugural meal.
    Ms. Watson. Did you also check the electrical loads?
    Mr. Demming. We were asked to do the technical inspection 
after we received the administrative contracting letter to do 
the O&M on the camp, and upon that inspection is when we 
started to find some of the issues on the loads. However, it 
was not until the actual startup of the facility is when the 
events appeared.
    Ms. Watson. Did you document that inspection? Can we find 
it somewhere in writing what you found?
    Mr. Demming. Yes, ma'am. Yes, ma'am.
    Ms. Watson. Now here is another statement that was in the 
cable. I am just repeating what the cable said. ``KBR confirmed 
and agreed specifically that they could manage and operate the 
facility based on the design.''
    Is that true?
    Mr. Demming. I am sorry, Ms. Congresswoman. Can you say 
that again?
    Ms. Watson. I will repeat it, yes.
    ``KBR''--you--``confirmed and agreed specifically that they 
could manage and operate the facility based on the design.''
    Did you know what the design was?
    Mr. Demming. No, Ms. Congresswoman. I really can't answer 
that. That might have been something from upper management, but 
to my knowledge we did not accept that based on design.
    Ms. Watson. So there was no confirmation.
    Mr. Demming. That is correct.
    Ms. Watson. From you, OK.
    Mr. Demming. From me.
    Ms. Watson. Now here is another statement. ``KBR created 
the problems and are now trying to put this matter on the 
construction of the camp.''
    This says that KBR created the problems. What is your 
response to that?
    Mr. Demming. That is not true, Ms. Congresswoman.
    Ms. Watson. And you stipulate to that? You are under oath.
    Mr. Demming. Yes, ma'am.
    Ms. Watson. The cable not only blames KBR for the problems 
but also suggests a motive, and this is what was said in the 
cable.
    Mr. Tierney. Just finish up if you would, please. Thank 
you.
    Ms. Watson. OK, I will go real quickly.
    ``These items do not represent any health or safety risk as 
outlined in the 25 May cable and will not stop Post from 
occupying the camp if they desire. For whatever reason, it 
appears Post and KBR simply do not want to operate the camp for 
other reasons which have nothing to do with the construction or 
equipment installed as part of the original scope.''
    Do you have any idea what is being said and does KBR have 
other reasons for not wanting to operate this camp?
    Mr. Demming. No, Ms. Congresswoman. I do not understand the 
justification of that statement.
    However, if I may, I would like to respond to your question 
about the safety of the camp. On May 15th, I received an e-mail 
from my electrical superintendent working out there, describing 
how our guys have gotten shocked touching up against the frame 
of the trailer. None of our wiring was powered up at the time 
of the modifications that we were doing over there for the May 
15th meal.
    So they shut down the breakers one by one to find the 
cause. One of the feeds for the oven had actually melted. This 
was a feeder wire to the ovens, equipment KBR did not supply, 
that actually melted and came into contact with the trailer, 
causing personnel in there to get shocked or electrocuted.
    It did not trip the circuit breaker, the over-current 
protection, because it was improperly grounded. That is another 
safety issue that we discovered during the May 14th startup.
    This goes on, ma'am.
    Mr. Tierney. Thank you.
    We can cover that maybe another time. Thank you, Ms. 
Watson.
    Ms. Watson. I will continue to probe this if we have a 
second round.
    Mr. Tierney. Thank you very much.
    Mr. Westmoreland, you are recognized for 5 minutes.
    Mr. Westmoreland. Thank you and thank you for coming to 
testify.
    Are you aware of any labor abuse that was involved?
    Mr. Demming. No, Mr. Congressman.
    Mr. Westmoreland. Let me ask you another question referring 
to some of these pictures that were submitted. Are you familiar 
with the pictures that have been submitted?
    Mr. Demming. Yes, I am, Mr. Congressman.
    Mr. Westmoreland. The last picture shows and I know the 
exact term for it but shows the measurement of the wires.
    Mr. Demming. That is correct.
    Mr. Westmoreland. Could you tell me what those numbers 
actually say on that picture?
    Mr. Demming. That is correct. On the top picture, the 
micrometer reading is the cable that we buy, that we have had 
in stock from our purchases. The 3.9 is the diameter dimension 
of the copper wire inside that cable. It is a multi-conductor 
cable.
    If you take the diameter divided by 2 squared and do some 
mathematics, you get the area in millimeters of that cable 
which comes to a little over 10 millimeters. That is referred 
to as a 10 millimeter square conductor or multi-conductor 
cable.
    The bottom picture shows the suspect counterfeit cable 
marked clearly 10 millimeter square. With the micrometer gauge 
on that, it is reading 2.8.
    Again, if you do the mathematics, Mr. Congressman, the area 
square of that conductor will come out to 6 millimeters. That 6 
millimeter difference is a significant amperage load difference 
on that cable of what it is capable of carrying.
    Mr. Westmoreland. Thank you.
    I notice you have a calculator there next to it. So I am 
assuming that you just can't do this in your mind. It takes 
some type of calculation to come up with these millimeters. Is 
that correct?
    Mr. Demming. That is correct, Mr. Congressman.
    Mr. Westmoreland. How many electricians have you ever seen 
on the job that carried around one of these whatever those 
things were with a calculator?
    Mr. Demming. Micrometer.
    Mr. Westmoreland. Have you ever seen any electricians have 
those in their nail pouch or their screwdriver belt or 
anything?
    Mr. Demming. No, Mr. Congressman.
    Mr. Westmoreland. OK.
    In some of the other pictures, I noticed, and I am in the 
building business. I have never seen red, blue and yellow 
wires. There seems to be some type of color coding for these 
wires. What are the different colors?
    Why are some of the wires blue, some yellow and some red?
    Mr. Demming. Mr. Congressman, that type of cabling and 
color coding is indigenous to that region.
    Mr. Westmoreland. I am sorry.
    Mr. Demming. That type of color coding and cabling is 
indigenous to that region.
    Mr. Westmoreland. OK.
    So when I look at the panel box and I see red, yellow and 
blue, that would be some kind of indication that somebody might 
have a language barrier or something, but he would know to plug 
the red wire in the red and the yellow into the yellow and the 
blue into the blue.
    Mr. Demming. Typically, just like the United States, Mr. 
Congressman, we have black, red, blue as an indication of 
phasing, and this is the same configuration. Just they use 
different colors over there, and that would be considered what 
we say RYB which would be the same as black, red, blue.
    Mr. Westmoreland. I have been in the construction business 
a long time and seen a lot of panel boxes, and I have never 
seen any that had the color codes for the cables to go into, 
but I understand that.
    Not only is there maybe something lost, I guess, in 
interpretation or in wiring diagrams or differences in building 
codes or whatever, but also the thickness of this wire would be 
something if you were using metric or American or whatever to 
try to get in place that this was only a 6 millimeter.
    Do you know if by just cutting that wire with your hand 
that you would have noticed any difference?
    Mr. Demming. Mr. Congressman, I might be a little rusty on 
that after being in the administrative portion of this industry 
for a while, but the gentlemen that are in the field and do 
this every day, it is very typical for them to distinguish the 
differences on sight.
    Mr. Westmoreland. OK, and let me ask you another question.
    You mentioned the ground wiring to the boxes, and I looked 
and I couldn't tell where the ground wire would go. I didn't 
see the bus bar, I guess, or whatever on the box itself. But 
how much would it cost to run a ground wire and hook it to 
these panels?
    What is an estimate? Are we talking about $10 million, $1 
million, $100,000, $1,000? What would be the cost to correct 
this grounding situation and really replace?
    Mr. Tierney. Mr. Westmoreland, we are going to let him ask 
that first question, if we might, because your time is expired 
and I do want to hear the answer. Then we will move on. Thank 
you.
    Mr. Demming. Mr. Congressman, I could not give you a price 
on the cost of that because of the intricacy of the 
construction involved. The cable has already been run. In some 
spots and areas of the camp, they have poured concrete roadways 
over, and this would have to be tallied up as square footage.
    Mr. Tierney. Thank you very much.
    Mr. Westmoreland. Just to followup on that, just one 
question, just one quick thing.
    Mr. Tierney. If you can keep it very, very, very brief.
    Mr. Westmoreland. Why would you have to run a ground wire 
under a road? I am confused about that.
    Mr. Demming. That is the way they ran the feeders, Mr. 
Congressman.
    Mr. Tierney. Thank you.
    Mr. Lynch, you are recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. Thanks for holding this 
hearing.
    Thank you, Mr. Demming, for helping the committee with its 
work.
    I am going to let this electrical thing go at some point, 
but it would seem to me. I spent 20 years working, strapping on 
the work boots and working on a constructionsite before coming 
to Congress, and I know my way around a constructionsite. This 
is a pretty basic mistake here. This is basic.
    Either the people doing the work at the very basic level 
should have recognized what they were doing. If they knew what 
they were doing, they would have known this was wrong. That is 
the workers themselves, the workers themselves wiring this job 
for the intended purpose. It should have been painfully obvious 
that they were making huge mistakes here.
    Then if you go to the next level, the foremen or forewomen 
that are supervising the actual work, they should have known. 
Then, of course, whoever is above them, the supervisors on the 
site, they should have known. Then the quality control people 
who are supposed to be checking this work, they should have 
known.
    This is like putting your pants on backward. This is 
something that should have been obvious to anybody who was 
familiar with electrical work, regardless of what country, 
regardless of what standard. This was just totally 
unacceptable.
    When you turn the appliances on and the wires start to 
melt, you know you have yourself a problem. So I think this is 
something that is inherent in the whole system here. It is not 
a technical misreading.
    I have been over to Iraq seven times now, and a lot of that 
time has been spent reviewing Iraq reconstruction projects, 
working with Stuart Bowen.
    Every time I go to a job site, and it is the same 
everywhere, whether I visit Al Qaim. KBR has a project up there 
at the border entry on the Syrian border. I go through there, 
and I try to talk to the workers and had an Iraqi interpreter 
which was to no purpose because they were all from India, all 
these workers from India.
    Then we visit a water sewage treatment facility up near 
Irbil, and they are all Pakistanis. So I couldn't talk to them.
    We went to a couple of projects in and around Baghdad. They 
were Chinese and Korean.
    It just makes me wonder. Here we are. We are trying to sell 
democracy to these folks, the Iraqis. We are pumping in $12 
billion a month there, and yet every job I go to the Iraqis 
aren't working.
    It is like we have our policy wrong. If we are going to 
convince them democracy is the way to go, you don't do that 
through the Defense Department. The way you show them that 
democracy works is to provide them with jobs. If they were 
employed, maybe instead of employing, and God bless the Indians 
and the Pakistanis and the Chinese and the Koreans, but they 
have major problems in Iraq right now.
    We are providing the money. We are providing the 
construction projects. We are supposed to be providing the 
oversight and the supervision. It seems to me that you don't 
export democracy through the Defense Department. You do it 
through the Commerce Department, the State Department and 
letting these folks go to work and actually seeing what a 
normal life is like.
    Take these people out of employment. The unemployment rate 
in Iraq among males between ages 18 and 35 years old is 
probably up over 50 percent. Put some of these folks to work.
    I know you are probably not the guy responsible for that 
decision, but somewhere someone along the line ought to figure 
out that if we put some of these Iraqis to work instead of 
bringing in the lowest wage workers from around the world and 
exploiting them, it might help the situation there.
    Is that the practice?
    I mean everywhere I go, it seems to be that the workers are 
from somewhere else. Even though there is a ton of unemployed 
Iraqis all over Iraq, doing God knows what, we seem to be 
employing through our tax dollars, through government 
contracting, we are employing everybody but the Iraqis. I just 
want to know if that is the policy and is that something that 
you have seen.
    Mr. Demming. Mr. Congressman, I employ over 300 Iraqis in 
the engineering and construction side of KBR's support for 
USMI.
    Mr. Lynch. Out of how many people?
    Mr. Demming. That is out of 400 and some odd people.
    Mr. Lynch. So 75 percent of your entire department.
    How about KBR on the ground in Iraq, how about the total 
number there?
    Mr. Demming. I am not understanding your question. I am on 
the ground in Iraq.
    Mr. Lynch. No, no. I am talking about Kellogg Brown and 
Root, all your operations.
    Mr. Demming. Oh, the whole operations, I don't have that 
information.
    Mr. Lynch. All right. I will let it go at that. Thank you, 
Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. Issa, you are recognized for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Demming, it is kind of interesting. This is a hearing 
in search of an enemy, and I keep wondering how many and when 
they are going to turn on you because obviously this has been 
the Democrat agenda from day one. Halliburton, once managed by 
the Vice President. KBR, owned by him. Obviously, you are bad 
guys as a result.
    It is sort of interesting that you are here today as a 
neutral observer, somebody to give us information. It is sort 
of amazing when it is convenient, KBR is what it is, an 
incredibly knowledgeable global builder who understand the 
right way, the wrong way, the expeditious way to do things.
    Do you see any irony there in your role?
    Mr. Demming. I will defer that comment.
    Mr. Issa. You are a wise man. I see the irony, fortunately, 
for both of us.
    I am not an engineer, but I did once operate an engineer 
company for the Army and did a little other work. What this 
rat's nest looks like to me is like most of the 20 by 20's we 
in the Corps of Engineers built.
    It looks like every piece of temporary expeditious building 
that ever went on when you didn't go for permits and you used 
romex or whatever you had to go from point to point to get a 
job done. Is that what it looks like to you?
    Mr. Demming. Yes, it does, Mr. Congressman. I would just 
like to iterate that in the National Electrical Code, Article 
590, temporary refers to 90 days or less.
    Mr. Issa. Would it surprise you to know that 75 percent of 
Fort Ward when I was there was temporary buildings? They were 
built in World War II. I know I look old, but I wasn't there in 
World War II or in 90 days after.
    Mr. Demming. No. No, Mr. Congressman. I was stationed there 
prior to going overseas with the U.S. Army in 1971.
    Mr. Issa. Now the State Department estimate--I know you 
don't have an estimate--is that to do the basic compliance 
wiring for the items that are shown here, it is $4,000 to 
$6,000 to correct that. I am assuming that they are going to 
drive in a ground on the building side and pick up a new ground 
there.
    Is that something that if you were having to retrofit this, 
you would figure you could do, and with the labor force cost 
there, you could do for $4,000 to $6,000, just a rough guess, 
to correct it, simply to make it safe?
    Mr. Demming. Mr. Congressman, I can't comment on that 
price. We run a different system to make things safe because of 
the ground and the environment over there. It is called a solid 
grounding system.
    Mr. Issa. OK. I understand. It is probably more than we can 
get into for how we would establish a ground, but basically let 
us switch to another question.
    You have operated out of construction trailers for a long 
time, haven't you?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Issa. You consider them temporary.
    Mr. Demming. No, Mr. Congressman.
    Mr. Issa. You don't consider a construction trailer 
temporary? Please, you don't have to say Mister and 
Congressman.
    Mr. Demming. A construction trailer, yes, I do. The 
environment that we are in there at this particular point in 
time, it is running over 90 days.
    Mr. Issa. No, no. I understand that, but I just want to 
make sure I understand that construction trailers aren't 
permanent. The connection, the actual drop, the electrical drop 
to a construction trailer is a separate consideration. It is 
done normally with a black multi-conductor that comes down. You 
do different connections on a constructionsite.
    Mr. Demming. That is correct.
    Mr. Issa. OK.
    Often on a constructionsite, and I am not making any 
apologies for this kind of wiring, but these wires and how they 
are run, these things, they are often done expeditiously, quick 
order. Is that true on a constructionsite?
    Mr. Demming. The typical wiring is on the startup of a 
project or the ending of a project or during a project is done 
hastily.
    Mr. Issa. Was anyone killed as a result of these mistakes?
    Mr. Demming. When I first landed on the ground in 2003, we 
did have several soldiers get electrocuted to death, sir.
    Mr. Issa. As a result of these trailers?
    Mr. Demming. As a result of bad wiring.
    Mr. Issa. These trailers?
    Mr. Demming. Not these trailers. I am not sure of the 
actual.
    Mr. Issa. OK. I just wanted to find out because that is a 
separate concern and each accident investigation should be 
done.
    Last question because my time is expiring and it is an 
important one, and I think it is one that we all need to have 
an answer to.
    In this combat zone, if you do not source materials at a 
fairly expensive amount directly from a known source, if you 
simply buy on the local market or through intermediaries in 
Iraq, is it likely to get counterfeits and is that one of the 
reasons that KBR and other prime contractors pay extra to have 
known sources they are buying from in the region rather than 
picking up on the domestic market?
    I am particularly referring to the micrometer measurings 
and the counterfeits that obviously got into this project.
    Mr. Demming. That would be a concern, but it is not common 
or atypical. We have acquired the proper material in-country 
through local purchasing.
    Mr. Tierney. Thank you, Mr. Issa.
    Ms. Norton, you are recognized for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate this 
hearing.
    The State Department, we have been hearing for months now 
as well as other civilian employees have eschewed going to Iraq 
even in the safe zones. We are trying to get our soldiers out. 
We hope we would leave Embassy employees there. This hearing is 
important to establish whether it is safe for people to be 
there and whether the United States of America is making it 
safe.
    I understand that you have brought some pictures with you, 
and I am going to ask a series of questions to try to get to 
responsibility here. We can look and say, well, you could 
always fix that. I would like to know who is responsible.
    We are now looking at this picture before you. Could you 
describe for us what the problem is as you see it in your 
expertise?
    Mr. Demming. Ms. Congresswoman, this particular picture 
here is showing the cabling branch circuits from all the other 
areas of that particular section of modular unit of the DFAC. 
This is underneath the DFAC.
    Ms. Norton. This is what, sorry?
    Mr. Demming. Underneath the DFAC, underneath the floor.
    Ms. Norton. What is the specific problem that you see?
    Mr. Demming. OK. If you look at the cabling there, the wire 
nuts which show the connections where the wires may have been 
spliced together, we call them wire nuts, the little red 
things. Typically are installed in a box with a cover.
    Ms. Norton. And it is not with a cover, what is the 
problem? What is the problem?
    What is the danger? What is the problem?
    Mr. Demming. These splices are not done correctly according 
to any standard or code. There is no supporting on the wire as 
well as some of the construction. The holes going through the 2 
by 4 typically require about an inch and a quarter from the 
edge. You can see the holes are drilled right at the edge which 
would allow for a nail to puncture the cable.
    Ms. Norton. Did KBR do this? Was it done prior to KBR?
    Did First Kuwaiti do it? Who did this?
    Mr. Demming. This is the BESF camp. KBR did not perform the 
construction on this camp.
    Ms. Norton. Can we go to the next picture? Would you 
describe, looking at this picture, if there is a problem, what 
is the specific problem?
    Mr. Demming. I believe what the photographer was trying to 
depict here is there is no ground bar in this panel. This would 
be the submain panel that is fed directly from the main panel 
from the generators.
    Ms. Norton. When you say ground bar, make layman dummies 
like me understand what you mean.
    Mr. Demming. I am sorry. Excuse me, Ms. Congresswoman.
    Ms. Norton. And what the specific problem is from the point 
of view of not having the ground bar.
    Mr. Demming. There is always the availability of being 
shocked, and there is no protection for the over-current 
device, the breakers there, to operate properly.
    Ms. Norton. Thank you.
    Let us go to the next picture. Would you describe the 
problem there, the specific problem in layman's terms?
    What are we looking at? What is the problem in layman's 
terms?
    What is the danger?
    Mr. Demming. As you can see, the feet and this receptacle 
is on the floor, improperly installed.
    Ms. Norton. So the feet, that is where you plug?
    Mr. Demming. Correct. That is a receptacle.
    Ms. Norton. What is the problem with that?
    Mr. Demming. It is on the floor, installed improperly. It 
would be subject to water and moisture every time they clean 
the DFAC.
    Ms. Norton. Who did this? Did KBR do it? Was it done prior 
to KBR arriving on the scene?
    Mr. Demming. This was done during the construction of the 
BESF camp, not by KBR.
    Ms. Norton. Let us go to the next picture. Next picture, 
please. Describe what this picture is. If there is a problem, 
what is the problem?
    Mr. Demming. OK. These are 100 amp panels installed inside 
the dining facility. Again, you have to look really close at 
these pictures. The grounding where the green wires are, the 
main ground going back to the main panel, is not correctly or 
non-existent.
    Ms. Norton. So what is the problem from the point of view 
of somebody in the building, for example?
    Mr. Demming. This again, there is a prelude to electric 
shock and a safety hazard, and the over-current devices won't 
work properly.
    Ms. Norton. Next picture, please. Would you describe any 
problem, if you see a problem?
    First, tell us what this is a picture of and if you see a 
problem, would you tell us what the problem is?
    Mr. Demming. During one of the technical inspections we had 
after the event where people opened up some of the commercial 
cooking equipment installed by others in this DFAC, on the 
right side where the brown, blue and yellow cables are 
connected to that terminal strip, are incorrectly terminated 
there and the phasing is incorrect.
    Ms. Norton. With what result, perhaps?
    Mr. Demming. That would cause. We have a hot wire on the 
neutral as well as on the line, so that would cause a short or 
400 volts instead of 230 volts for operation. That may cause a 
fire.
    Ms. Norton. Did KBR install these cables or were they 
installed before KBR arrived on the scene?
    Mr. Demming. This was again, Ms. Congresswoman, installed 
by others.
    Mr. Tierney. Thank you very much, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Tierney. Ms. McCollum, you are recognized for 5 
minutes.
    Ms. McCollum. Thank you, Mr. Chair.
    When I am in a kitchen, whether it is here or if I am 
visiting someone, and I do travel. I am in a lot of developing 
countries. I have confidence that when I plug something in, I 
am not going to receive an electrical shock because there is, 
as you described, an international code, correct?
    Mr. Demming. I am sorry, Congresswoman. Can you speak a 
little louder?
    Ms. McCollum. When I travel somewhere and I travel 
internationally, and I am in developing countries quite often. 
I am in U.S. embassies. I am in USAID hospital facilities or a 
small type, the equivalent of a Motel 6, not even a four star 
hotel but just staying some place. I have confidence that when 
I go to plug something in, when I go to flip a switch, that I 
won't be electrocuted because there is an international 
standard, correct?
    Mr. Demming. Not necessarily, Congresswoman.
    Ms. McCollum. Well, I am certainly seeing that, based on 
what you are showing me here, I should have very little 
confidence of anything that has been paid for by U.S. 
taxpayers' money, that there has been any kind of international 
standard followed based on these pictures that you showed me.
    You would have no confidence without inspecting something 
yourself before you plug something in, in this compound, based 
on what you have shared with us today, correct?
    Mr. Demming. Let me see if I understand your question, 
Congresswoman. The countries you have been in, developing 
countries, the environment is atypical.
    Ms. McCollum. I am saying U.S. buildings that I have been 
in where U.S. employees are staying or where the USAID has 
built a hospital or a clinic or embassies, that I should feel 
fairly confident that if I flip the light switch, I am not 
going to be electrocuted.
    Mr. Demming. Correct.
    Ms. McCollum. But from what I am seeing here and from you 
have shown me, especially in a kitchen area where there is 
water and grease and a lot of electrical appliances being 
plugged in, that I would be a fool to have any confidence that 
if I plug something in or flipped a switch if I was a worker 
there, that I might not be severely shocked or even 
electrocuted.
    Mr. Demming. Hopefully, the entity that would release the 
building or facility prior to it opening to the public would 
have made these inspections and corrected all those faults, and 
that is kind of the position that we are playing here right 
now, Congresswoman.
    Ms. McCollum. So that when you have your employees go in 
there and they plug something in or turn on a switch, that you 
don't have a worker that is severely injured or possibly even 
killed by this poor workmanship.
    Mr. Demming. That is correct.
    Ms. McCollum. I found it interesting, one of the questions. 
You had spoken about counterfeit wiring earlier, and someone 
said well, if you follow the specifications, there isn't a 
problem. Specifications don't ever call for counterfeit wiring, 
do they?
    Mr. Demming. No, Congresswoman.
    Ms. McCollum. No, I wouldn't think so.
    Specifications wouldn't call for, as you described in here, 
an outlet on the floor of a dining area where there is going to 
be water because people mop it up.
    To have a non-waterproof, flush-mounted plug-in as one of 
the pictures showed, that wouldn't be a specification that a 
U.S. contractor would expect going into a dining facility, 
would they?
    Mr. Demming. There are codes that regulate that type of 
installation, Congresswoman.
    Ms. McCollum. In your opinion, before KBR comes into take 
over running the facility and using it to prepare the meals, 
would you have assumed, because U.S. taxpayers' dollars were 
being used to construct this, even if it is temporary, this 
dining facility, there would have been some oversight, some 
inspection to make sure that when you walked in that day, you 
could have plugged in the equipment, flipped a switch and 
started operating as you had planned?
    Mr. Demming. We do perform those inspections prior to 
operating or taking over a facility, Congresswoman.
    Ms. McCollum. What was your reaction when you sent the 
cable saying that there were problems, when you went up the 
chain of command, saying that there are problems with this?
    What was the Government's reaction, who had contracted out 
and paid for this service? Shocked? Surprised? Had they 
inspected it?
    Mr. Demming. They showed concern, Congresswoman.
    Mr. Tierney. Thank you, Ms. McCollum.
    Ms. McCollum. Thank you.
    Mr. Tierney. Mr. Sarbanes, do you have any questions?
    Mr. Sarbanes. Just a couple, Mr. Chairman.
    Mr. Tierney. You are recognized for 5 minutes.
    Mr. Sarbanes. Thank you.
    Mr. Demming, KBR's connection to all this, I am trying to 
understand. This is a basic factual question. In terms of First 
Kuwaiti, was the prime contractor for this base camp or guard 
camp that was put together, and KBR was coming in behind for 
what purpose? Can you just tell me that again?
    Mr. Demming. We were asked to care for the facilities under 
an operations and maintenance agreement with the Department of 
State Facilities Management and our client, the U.S. Army. When 
we performed the technical inspection prior to accepting the 
operations and maintenance agreement is when we started 
noticing.
    Mr. Sarbanes. So First Kuwaiti was not a subcontractor to 
KBR in this instance.
    Mr. Demming. No, Congressman.
    Mr. Sarbanes. But has First Kuwaiti been a subcontractor 
for KBR in other situations?
    Mr. Demming. Yes, sir, Mr. Congressman. We have used First 
Kuwaiti for other services as a subcontractor.
    Mr. Sarbanes. In connection with this Embassy project or 
with other things separate from the project?
    Mr. Demming. With other smaller projects.
    Mr. Sarbanes. The problems that you discovered or found 
when you got there, for the moment, all your knowledge is that 
related to this guard camp. You don't have any knowledge yet 
that there are similar problems in the other parts of the 
project, the larger Embassy project. Is that what you said?
    Mr. Demming. That is correct, Congressman.
    Mr. Sarbanes. Are the teams of people that were deployed on 
this guard camp, whether electrical teams or others, are they 
completely separate from teams that might be deployed to other 
parts of the project, as far as you know, even though they are 
all First Kuwaiti employees?
    Do you understand what I am asking you?
    Mr. Demming. No, Mr. Congressman. Could you repeat that?
    Mr. Sarbanes. The First Kuwaiti employees who would have 
worked on the guard camp, would any of those employees either 
have worked on the other parts of the Embassy project or is 
there a possibility they will work on the Embassy project going 
forward?
    Mr. Demming. I can't answer that, Mr. Congressman.
    Mr. Sarbanes. But that is certainly possible, wouldn't you 
say?
    Mr. Demming. I would imagine so. It is not a very big 
place.
    The extent of some of the other contracts we use First 
Kuwaiti for is mainly concrete, providing concrete, not any, no 
projects to this extent.
    Mr. Sarbanes. I was looking through the submitted testimony 
of First Kuwaiti, and they said here with respect to the guard 
camp that although constructed by First Kuwaiti, it is a 
project separate from that of the Embassy with separate 
budgets, different First Kuwaiti management teams and different 
State Department supervisors.
    I guess the implication of that being that whatever 
problems there may be associated with the guard camp are things 
that could be kind of confined to that because there are these 
separate management teams and separate budgets.
    But you have indicated it is certainly possible that the 
actual employees that would be deployed to work on an 
electrical component of the larger project could be some of the 
same employees that worked on this guard camp, right? I mean 
that is very possible.
    Mr. Demming. To my recollection, Congressman, I don't know 
anything about that. Our involvement over there is very limited 
as far as the correlation between.
    Mr. Sarbanes. Would you agree, though, that would certainly 
be something we would want to know, that you would want to 
know?
    You would want to know whether the folks that were 
responsible for this shoddy workmanship, where they are going 
next, what is their next project, what is the next footprint 
they are going to make on the larger Embassy project. I mean 
you would agree that would be something reasonable to know.
    Mr. Demming. I would like to defer that question, Mr. 
Congressman.
    Mr. Sarbanes. Thank you. I have no further questions.
    Mr. Tierney. Thank you, Mr. Sarbanes.
    Mr. Cannon, you are recognized for 5 minutes.
    Mr. Cannon. Thank you, Mr. Chairman. I appreciate your 
holding the hearing and would like to yield to the ranking 
member, Mr. Davis.
    Mr. Davis of Virginia. Thank you.
    Let me just give a perspective. This is a punch list item 
we are talking about. You plugged it in. The wiring didn't 
work.
    This is a firm fixed-price contract. First Kuwaiti hasn't 
been paid a penny yet, to my knowledge. Do you have any 
knowledge that they have been paid anything, Mr. Demming?
    Mr. Demming. No, Mr. Congressman.
    Mr. Davis of Virginia. The way this works is they haven't 
been paid a penny. They have to fix it. They have to deliver 
it. We pay for it. We don't pay for it until it is perfect.
    It is not uncommon in construction whether they are complex 
construction projects or a temporary project like this, that 
things in the punch list go wrong. Sometimes there is painting 
speckled, something gets damaged and the like. Isn't that your 
experience, that there are usually numerous punch list items on 
inspections?
    Mr. Demming. Yes, there is, Mr. Congressman.
    Mr. Davis of Virginia. Thank you.
    So let us put this in perspective. My understanding is the 
cost that it would take for these repairs, wiring and so on, if 
they need to be done--again we don't know what the specs were 
but we know what the expectation was--is $4,000 to $6,000.
    It costs more to hold this hearing than it would to fix 
this, and this is under a firm fixed-price contract.
    Let me just ask this. KBR does do business with First 
Kuwaiti, right?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Davis of Virginia. You have not found them an 
irresponsible contractor?
    Mr. Demming. Mr. Congressman, I don't deal with the 
contracts, only with the projects.
    Mr. Davis of Virginia. But you deal with them on the 
projects. Have they been a bad contractor?
    Mr. Demming. They usually work for us in the capacity of 
providing something.
    Mr. Davis of Virginia. Do they do a good job or a bad job?
    Mr. Demming. They do OK.
    Mr. Davis of Virginia. All of your knowledge that you have 
testified on today is about the temporary trailer area, not the 
Embassy, is that correct?
    Mr. Demming. That is correct.
    Mr. Davis of Virginia. You have really no knowledge about 
the Embassy contract, per se, which was hyped in the headline 
for this hearing today.
    Mr. Demming. That is correct.
    Mr. Davis of Virginia. I just wanted to clarify that. I 
think that is all I have. I would yield.
    Mr. Cannon. I would be happy to yield to Mr. Issa.
    Mr. Issa. Thank you.
    You are familiar in Iraq with the other temporary 
structures that are military, aren't you? You have seen the 
thousands of tents that our troops are in?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Issa. Have you looked at the electrical on any of 
those?
    Mr. Demming. We have in the past, Mr. Congressman.
    Mr. Issa. Just quickly, they have been there more than 90 
days, right?
    Mr. Demming. Yes, sir, Mr. Congressman.
    Mr. Issa. In some cases, we have had to replace canvas 
because it sort of eroded over the time of this war, isn't that 
your understanding?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Issa. In fact, what we have is laid on top of the 
ground, black double-insulated, multi-conductor running to 
those tents from my experience. Is that roughly your 
experience?
    Mr. Demming. Typically, on the unit that I run with the 
USMI, Mr. Congressman, all our cabling if it is going to 
ground, even a tent, is buried. It is put under ground a 
minimum of 2 feet of 750 millimeters. This is for safety 
purposes. In case there is an event or an IDF attack, we have 
to run.
    Mr. Issa. I understand they have been going back and 
retrofitting. Perhaps I should have said on my first of many 
trips to Iraq this is how they did it and they have been going 
back and retrofitting.
    Have you been involved with other combat engineer type 
operations, though, over the years in support or past 
experience? Have you seen how they typically go?
    Mr. Demming. No, Congressman.
    Mr. Issa. Well, let me just run you through my limited 
experience. Typically, you come in. You roll a trailer in. You 
roll out some black multi-conductor of the correct amperage. 
You hook it up. You put the other end on a generator. You crank 
it up. You got a light bulb going and a couple of plugs.
    Then as you have resources, you come back and do updates 
and modifications as you need to be. By the way, no excuse for 
any safety violations, no excuse for bare wires or absence of 
grounds.
    But isn't that sort of the normal way you do it in a combat 
environment when you bring in temporary structures is you get 
the things up and operational and get people out of the 
elements and then you do continuous refinements and 
improvements? Has that been your experience?
    Mr. Demming. Mr. Congressman, I believe the standards for 
that would 281-1.
    Mr. Issa. But isn't it true that the Corps of Engineers in 
a combat environment operates under what is necessary to 
accomplish the mission? Isn't that your understanding in a 
combat environment?
    Mr. Demming. I was not a combat engineer, Mr. Congressman.
    Mr. Issa. OK, maybe that was a luxury you didn't have.
    Isn't it true that these trailers were made in another 
country and brought in and that many of these flaws which 
needed to be corrected--the State Department says $6,000 
worth--would normally happen if you had a one time 
subcontractor and you are trying to get things done in a combat 
environment on a temporary basis in order to accomplish a 
mission?
    Isn't that reasonable that you take the trailer and make 
the retrofit because you can't afford to wait another 4 months 
to get structures?
    Mr. Demming. Yes, Mr. Congressman.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you.
    I just have one question before I let you go, Mr. Demming, 
and I thank you for your patience.
    Given your experience and given your observations out 
there, knowing that the same company has done the camp area as 
well as the Embassy, would you advise that we ought to have any 
concern about the electrical wiring in other parts of the 
Embassy?
    Mr. Demming. I am sorry, Congressman. Can you repeat the 
last part of that.
    Mr. Tierney. Given your experience, given your observations 
and understanding that the same company that is the contractor 
for the work that you have been talking about is the same 
contractor for the Embassy, ought there be some concern about 
the wiring in other parts of the Embassy?
    Mr. Demming. I would really rather not make that 
determination here.
    Mr. Tierney. I am asking for an opinion, so you don't need 
to make a determination. I am asking for an opinion based on 
your background and your observations.
    Mr. Demming. I would like to defer that opinion, Mr. 
Congressman.
    Mr. Tierney. I know you would, sir, but I am asking for 
your opinion.
    Mr. Demming. My opinion, there may be concern here.
    Mr. Tierney. Thank you, Mr. Demming.
    I want to thank you very much for your testimony today and 
thank the members of the panel as well. You may be happy to 
leave that table if you would, and the other witnesses will 
come on.
    Mr. Davis of Virginia. Mr. Chairman, point of order, I 
thought we were doing a second round.
    Mr. Tierney. No, sir, we are not.
    Mr. Davis of Virginia. Oh, OK.
    Mr. Tierney. Thank you, Mr. Demming.
    Mr. Demming. Thank you, Mr. Chairman.
    Mr. Tierney. We will take about a 1-minute break here while 
the second panel gets up here.
    [Recess.]
    Mr. Tierney. The committee and the subcommittee will now 
receive testimony from our second panel.
    I would like to introduce the members of our panel, the 
witnesses that are here to offer information about First 
Kuwaiti labor practices from their perspective. Mr. John Owens 
is the former First Kuwaiti construction foreman on the Embassy 
project and Mr. Rory Mayberry is the former First Kuwaiti 
subcontractor medic on the Embassy project.
    Thank you both for being here today and for sharing your 
testimony and experiences. I know it took courage to come here 
and to participate.
    As for your full statements, they are going to be entered 
onto the record and transcript.
    You may give a brief account of that if you like. You have 
5 minutes to talk. You might want to summarize your testimony 
so you try to get it in the 5-minutes. I will try not to cut 
you off but may remind you if you are going over.
    It is the policy of the committee and of the subcommittee 
to swear you in before you testify, so I ask you to raise your 
right hands and stand if you would.
    [Witnesses sworn.]
    Mr. Tierney. The record will please reflect that both 
witnesses have answered in the affirmative.
    Again, I ask you to proceed and remember the 5-minute rule 
if you could.
    Mr. Owens, I ask you to go first.

   STATEMENTS OF JOHN OWENS, FORMER EMPLOYEE, FIRST KUWAITI 
    TRADING AND CONTRACTING CO.; AND RORY MAYBERRY, FORMER 
      EMPLOYEE, FIRST KUWAITI TRADING AND CONTRACTING CO.

                    STATEMENT OF JOHN OWENS

    Mr. Owens. Thank you to Chairman Waxman and Chairman 
Tierney and the members of the full committee for inviting me 
to testify here today.
    My statement will address labor abuse, human trafficking 
and other concerning issues that I personally witnessed on the 
constructionsite at the U.S. Embassy in Baghdad.
    My name is John Owens. I have worked on construction 
projects for many years, and since 2002 I have worked on U.S. 
Embassy projects. My specialty is architectural finishing.
    After I finished working with the U.S. Government on the 
construction of the Embassy in Cambodia, I went looking for a 
new project and I signed on with First Kuwaiti to work on the 
U.S. Embassy in Baghdad. They signed me on as a general foreman 
on the constructionsite. In all, I was employed by First 
Kuwaiti for approximately 8 months from November through June, 
from November 2005 to June 2006.
    When I arrived at the site of the U.S. Embassy, the biggest 
thing that hit me right off the bat was I wanted to know where 
all the Americans were. Based on my experience working on other 
embassies, I was used to seeing more Americans onsite to manage 
the construction and direct the workers. It turns out there 
were two other Americans onsite. However, they were not 
employed by First Kuwaiti. They were employed by 
subcontractors.
    I would like to take a moment to describe conditions on the 
site in a little more detail.
    This was a man camp and by nature not the most pleasant of 
places to be, yet the conditions were deplorable beyond even 
what a working man should tolerate. Foreign workers were packed 
into trailers very tight.
    There was insufficient equipment and basic needs like shoes 
and gloves. If a construction worker needed a new pair of 
shoes, he was told, no, do with what you have, by First Kuwaiti 
managers.
    The contract for these workers said they had to work 12 
hours a day, 7 days a week, with some time off on Friday for 
prayers.
    A few people from India told me they were making $240 a 
month. A guy from Sierra Leone told me got paid $300 a month. A 
Pakistani worker told me he made $900 a month, but he had to 
pay additional costs for his own work permits and visas, and 
afterwards he told me he probably averaged about $300 a month.
    Many of the workers were verbally and physically abused, 
intimidated and had their salaries docked for as much as 3 days 
pay for reasons such as being 5 minutes late, sitting down on 
the job and other stuff.
    Because I was the only American onsite working for First 
Kuwaiti, many of the workers thought I had some kind of power 
that I could help them with their problems. Many workers often 
came to me and told me that they hadn't been paid overtime, 
that their salaries were short, and they also came to me with 
their health problems, often asking me if I could go offsite to 
get some medication for them.
    It is not uncommon for a construction company to use native 
workers or even foreign workers to build an Embassy. I have 
witnessed this at other Embassy constructionsites that I have 
worked on. However, I do believe that if more Americans were 
onsite at the U.S. Embassy in Baghdad, the abuses I witnessed 
would not have been taking place. No American company would 
ever treat people the way I saw people being treated on that 
job.
    As I think of it, given the size of this job, my experience 
tells me that the State Department would usually have far more 
American staff members on hand to oversee the construction 
project.
    I would like to touch briefly on the issues of human 
trafficking, human trafficking that I believe I witnessed 
there. When flying from Kuwait to Baghdad, I saw a bunch of 
workers in the boarding area with boarding passes for Dubai. I 
was the only one in the group that had a boarding pass that 
said Iraq on it. When I asked a First Kuwaiti manager, he told 
me to be quiet and don't say anything. If Kuwaiti customs knew 
they were going to Iraq, they wouldn't let them on the plane.
    When we landed, these workers were taken away on buses. 
There was nobody manning the customs stations, and I just 
walked through without checking. Nobody asked for my passport.
    Mr. Chairman and members of the committee, I believe that I 
had more experience in building embassies than anybody else on 
the site. The Embassy was not far enough along for me to use my 
specific skills, so First Kuwaiti put me to work as a security 
liaison among other tasks.
    I think the American people might understand what was going 
through my head over there as I watched this abusive and 
unprofessional practice taking place. I kept thinking it would 
get better. I kept telling myself it would get better. But 
after more time had passed and things didn't get better, I felt 
bad all the time and I realized it was time to resign and maybe 
speak up for those that don't have a voice.
    This ends my statement. I would be pleased to take your 
questions.
    [The prepared statement of Mr. Owens follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.042
    
    [GRAPHIC] [TIFF OMITTED] 43507.043
    
    [GRAPHIC] [TIFF OMITTED] 43507.044
    
    [GRAPHIC] [TIFF OMITTED] 43507.045
    
    [GRAPHIC] [TIFF OMITTED] 43507.046
    
    Mr. Tierney. Thank you, Mr. Owens.
    Mr. Mayberry, you may proceed with your opening statement 
if you wish.

                   STATEMENT OF RORY MAYBERRY

    Mr. Mayberry. I would like to thank Chairman Waxman and 
Chairman Tierney and other members of the full committee for 
allowing me to come testify today.
    I believe I am one of only a few Americans that have 
recently worked on the site of the new Embassy in Baghdad. My 
impressions about how the construction was being managed left 
me incredibly disturbed.
    My name is Rory Mayberry. I am an emergency medical 
technician. Based on my professional experience and the fact 
that I have spent 4 years as a medical technician in Iraq, I 
was contacted by MSDS Consulting, LLC, March 2006.
    MSDS had seen my resume and wanted to contact me and 
contract me out to First Kuwaiti, the company that was 
constructing the U.S. Embassy in Baghdad. Under the contract, I 
was to provide emergency medical services on the site of the 
Embassy.
    I went into this contract with the same good faith as I did 
with all my other contracts. I wanted to use my medical skills 
to stop people from dying in a dangerous place.
    According to my contract, I reported to First Kuwaiti 
managers in Kuwait City where I signed my paperwork and 
received photo identification. Nothing led me to be concerned 
at this point.
    A few days later, I was given my flight information to 
Baghdad. At this point, First Kuwaiti managers asked me to 
escort 51 Filipino nationals and to make sure that they got on 
the same flight as I was headed to Baghdad.
    Many of these Filipinos did not speak any English. I wanted 
to help them to make sure that they got on the flight OK, just 
as my managers had asked me. We were all employees of the same 
company was my feeling.
    But when we got to the Kuwait Airport, I noticed that all 
their tickets said that we were going to Dubai. I asked why.
    A First Kuwaiti manager told me that Filipino passports do 
not allow Filipinos to fly to Iraq. They must be marked going 
to Dubai. The First Kuwaiti manager added that I should not 
tell any of the Filipinos that they were being taken to 
Baghdad.
    As I found later, these men thought that they had signed up 
for jobs to work in Dubai hotels. One fellow I met told me in 
broken English that he was excited to start a new job as a 
telephone repairman. They had no idea that they were being sent 
to do construction work at the Embassy.
    Well, Mr. Chairman, when the airplane took off and the 
captain announced that we were headed to Baghdad, all you know 
what broke out on the airplane. The men started shouting. It 
wasn't until the security guy working for First Kuwaiti waved 
an MP-5 in the air that the men settled down. They realized 
that they had no other choice but to go to Baghdad.
    Let me spell it out clearly. I believe these men were 
kidnapped by First Kuwaiti to work on the U.S. Embassy. They 
had no passports because they were confiscated at the Kuwait 
Airport. When the airplane touched down in Baghdad, they were 
loaded onto buses and taken away.
    Later, I found out that they were smuggled into the Green 
Zone. They had no i.d., no passports and were being smuggled 
past U.S. security forces.
    I had a trailer all to myself in the Green Zone, but they 
were packed 25 to 30 a trailer, and every day they went out to 
work on the construction of the Embassy without proper safety 
equipment.
    I went out on the constructionsite to watch. There were a 
lot of injuries out there because of the conditions these men 
were forced to work in. It was absurd.
    I had been hired based on my experience with OSHA 
guidelines and compliance, and I saw guys without shoes, 
without gloves, no safety harnesses and on scaffolding 30 feet 
off the ground, their toes wrapped around the rebar like a 
bunch of birds. One guy was up there intoxicated on 
painkillers, and I had to yell and scream for 10 minutes until 
they got him down.
    I was afraid of blowing the whistle on this because I 
didn't want to end up outside the walls of the Green Zone and 
left to fend for myself. I stayed in Baghdad at the site of the 
U.S. Embassy a total of 5 days before I was sent home.
    Once I got home, I contacted the military about what I had 
witnessed. After much delay and e-mail traffic, the military 
told me in fact the State Department is in charge of the 
Embassy construction.
    I have read the State Department Inspector General's report 
on the construction of the Embassy. Mr. Chairman, it is not 
worth the paper it is printed on. This is a coverup, and I am 
glad that I have had the opportunity to set the record 
straight. I look forward to your questions.
    [The prepared statement of Mr. Mayberry follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.047
    
    [GRAPHIC] [TIFF OMITTED] 43507.048
    
    [GRAPHIC] [TIFF OMITTED] 43507.049
    
    [GRAPHIC] [TIFF OMITTED] 43507.050
    
    [GRAPHIC] [TIFF OMITTED] 43507.051
    
    [GRAPHIC] [TIFF OMITTED] 43507.052
    
    Mr. Tierney. I want to thank you both for your testimony. 
Your testimony in written form has been put on the record 
already by unanimous consent as I noted earlier.
    Let me start the questioning by asking Mr. Owens. Did you 
observe any physical abuse of workers on the site?
    Mr. Owens. Yes, sir.
    Mr. Tierney. What is it that you saw?
    Mr. Owens. Guys getting shoved to the ground.
    Mr. Tierney. By who?
    Mr. Owens. First Kuwaiti managers and just generally being 
pushed around, shoved to the ground, yelled at, screamed at, 
that kind of stuff.
    Mr. Tierney. Did you report those incidents to First 
Kuwaiti or to the OBO?
    Mr. Owens. No.
    Mr. Tierney. Did you ever witness any First Kuwaiti 
officials carrying firearms or weapons on the compound site?
    Mr. Owens. Yes, sir.
    Mr. Tierney. Are you aware that according to the contract 
that First Kuwaiti had with the State Department you needed 
permission to carry a weapon on the site?
    Mr. Owens. Yes, sir.
    Mr. Tierney. Did either of you witness First Kuwaiti 
officials, managers or foremen verbally abusing third party 
national workers?
    Mr. Owens. Yes.
    Mr. Tierney. You indicated you had, Mr. Owens.
    Mr. Mayberry, did you?
    Mr. Mayberry. I didn't hear the question.
    Mr. Tierney. Did you witness any verbal abuse by foremen of 
the nationals?
    Mr. Mayberry. Yes, sir.
    Mr. Tierney. To the best of your knowledge, any third 
country nationals, how did they take that abuse and what 
reactions resulted?
    Mr. Mayberry. What I had seen, they would cower down to 
them. They would stop talking. Anything that they had to say, 
they would literally cower down to the management team.
    Mr. Tierney. Mr. Owens, what was your experience?
    Mr. Owens. Yes, that is correct. They would back down.
    Mr. Tierney. Mr. Owens, are you aware of any instance where 
a laborer was held or detained against his or her will?
    Mr. Owens. Yes, sir.
    Mr. Tierney. What would happen if a laborer wanted to leave 
the work site?
    Mr. Owens. They wouldn't be. The triple canopy guards would 
stop them. They wouldn't be allowed unless they could sneak 
over the wall.
    Mr. Tierney. Did you witness any opportunity where that 
occurred?
    Mr. Owens. Yes.
    Mr. Tierney. Would you tell us about it, please?
    Mr. Owens. One night, 17 Filipino workers went over the 
wall to find another job in the Green Zone.
    Mr. Tierney. How were you aware of that?
    Mr. Owens. They told me.
    Mr. Tierney. Did you see what happened as a result of their 
attempt to go over the wall?
    Mr. Owens. Well, when they went over the wall, First 
Kuwaiti sent somebody out to look for them and they brought 
them back.
    I guess they told the ones that got a job with another 
company. They were told. The company was told they would get 
sued if they kept that worker, that First Kuwaiti had paid to 
bring them to Iraq. So, you know, they were supposed to work 
for First Kuwaiti.
    Mr. Tierney. Were you aware, Mr. Owens, of any worker 
safety protection programs or training that was in place at the 
work sites?
    Mr. Owens. None whatsoever.
    Mr. Tierney. How did that compare to other workplace safety 
programs or Embassy construction projects on which you have 
worked in the past?
    Mr. Owens. The whole time I was on the site, I never saw 
one safety meeting, not one. But on other, all of the other 
Embassy jobs that I worked on, there was a safety meeting every 
week.
    Mr. Tierney. Did you ever report the lack of safety 
meetings or incidents of that to any other official?
    Mr. Owens. Yes, I spoke with Mary French, the project 
director.
    Mr. Tierney. What reaction did you get from her?
    Mr. Owens. It was a conversation. I noticed that there was 
a lot of guys on the job that weren't wearing hard hats and 
they were wearing turbans, you know, where they just take cloth 
and wrap it around their head, and I asked her. I said, how can 
they get away with that?
    Mary told me that the hats were against their religion. 
They couldn't wear a hat. They had to wear the turban.
    So I said, well, that really won't do much good if a piece 
of rebar falls, you know, falls on them.
    She told me that they believe in inshala which means God 
willing if they are going to get hurt or not going to get hurt.
    Mr. Tierney. Did the workers have access to safety 
equipment: hard hats, protective eyewear, appropriate footwear? 
Was there access to those things?
    Mr. Owens. Yes, I believe they pretty much did, but we were 
running out a lot. You know. A lot of guys would have to wait. 
It would be ordered.
    Mr. Tierney. Did you observe any injuries on the workplace?
    Mr. Owens. Yes.
    Mr. Tierney. Would you tell me about that?
    Mr. Owens. I just seen guys falling through stacked rebar 
before concrete pours, guys falling through it. There was one 
pretty bad accident where a guy fell off of a building because 
he wasn't roped off properly, but he was already on the ground 
by the time I got there.
    Mr. Tierney. Mr. Owens, were you ever contacted by the 
State Department Inspector General, Howard Krongard, regarding 
the allegations that you have made on abusive labor practices 
by First Kuwaiti?
    Mr. Owens. No.
    Mr. Tierney. Were you ever contacted by Deputy Inspector 
General William Todd?
    Mr. Owens. No.
    Mr. Tierney. Were you ever contacted by anyone who 
identified himself or herself as a staff member of the State 
Department Inspector General?
    Mr. Owens. No.
    Mr. Tierney. Mr. Mayberry, were you ever contacted by the 
State Department Inspector General, Howard Krongard, regarding 
allegations that you have made about abusive labor practices by 
First Kuwaiti?
    Mr. Mayberry. No, sir.
    Mr. Tierney. By Deputy Inspector General William Todd?
    Mr. Mayberry. No, sir.
    Mr. Tierney. By anyone identifying himself or herself as a 
staff member of the State Department Inspector General?
    Mr. Mayberry. No, sir.
    Mr. Tierney. Have either of you been questioned by the 
Department of Justice with respect to their investigations?
    Mr. Mayberry. Yes, sir.
    Mr. Tierney. Mr. Owens.
    Mr. Owens. Yes. The Justice Department, yes.
    Mr. Tierney. I notice that my time is expired.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. Davis of Virginia. Well, thank you very much.
    I want to thank both of you for your testimony.
    Let me just ask you for the record. Did each of you write 
your statement that you submitted this morning?
    Mr. Owens.
    Mr. Owens. Yes, sir, I wrote it, but somebody spell checked 
it for me.
    Mr. Davis of Virginia. Mr. Mayberry.
    Mr. Mayberry. I wrote my own, sir, and somebody spell-
checked.
    Mr. Davis of Virginia. Who was somebody? GAO?
    Mr. Mayberry. Yes, sir.
    Mr. Davis of Virginia. Because we have a document here 
saying that a document came from GAO that was put in there.
    That is all they did is spell check it?
    Mr. Mayberry. Yes, sir.
    Mr. Davis of Virginia. Let me ask you, Mr. Owens. Several 
press articles report that you have a False Claims Act lawsuit 
pending against First Kuwaiti, is this true?
    Mr. Owens. I am here today voluntarily to speak only about 
human rights violations that I observed.
    Mr. Davis of Virginia. And do you have a claim pending 
against First Kuwaiti?
    Mr. Owens. I am sorry.
    Mr. Davis of Virginia. You told the committee yesterday you 
didn't.
    Mr. Owens. I am sorry.
    Mr. Davis of Virginia. You told the committee yesterday--
let me just finish. You told the staff yesterday that you did 
not. That could be a false claim if, in fact, you have, but 
there have been press reports that you do.
    I am asking you now under oath to clarify that if you would 
like to. Otherwise, we will proceed accordingly.
    Mr. Owens. I am not legally permitted. No. I am.
    Mr. Davis of Virginia. You are under oath.
    Mr. Owens. I am under oath, and I am legally prevented from 
answering that question.
    Mr. Davis of Virginia. Not before a congressional 
committee.
    Mr. Tierney. The Chair acknowledges, Mr. Davis, that I 
believe if there were such a suit, it would be a sealed suit. 
He probably would not be able to talk about it.
    Mr. Davis of Virginia. It wasn't sealed in the Wall Street 
Journal when they reported it. I guess what is more disturbing 
is yesterday he told the committee he did not have anything 
pending. So that could be a false claim, and we will explore 
that later.
    How long were you in Iraq working for First Kuwaiti?
    Mr. Owens. Approximately 8 months, November 2005 through 
June 2006.
    Mr. Davis of Virginia. In your written statement, you said 
``I felt so bad that I just realized I had to speak up.''
    If, in fact, you have a lawsuit coming against First 
Kuwaiti--which I think we can assume we have because if it is a 
sealed order obviously you do--wouldn't you say that publicly 
smearing the defendant is also to your monetary advantage? 
Wouldn't it be?
    Mr. Owens. I am legally prevented from answering that 
question.
    Mr. Davis of Virginia. I think we get the picture.
    How many flights did you take over to Baghdad?
    Mr. Owens. How many flights?
    Mr. Davis of Virginia. Yes.
    Mr. Owens. I believe four.
    Mr. Davis of Virginia. How many of those flights did you 
notice the problem with the boarding passes saying Dubai?
    Mr. Owens. One.
    Mr. Davis of Virginia. The State IG's limited review of the 
conditions at the Baghdad Embassy did not have the same 
assessment that you did. The Inspector General, the independent 
Inspector General, did not have the same assessment regarding 
human trafficking that you did.
    Have you read the State IG's report?
    Mr. Owens. Yes, I looked at it.
    Mr. Davis of Virginia. What is your reaction to it?
    Mr. Owens. As far as the trafficking?
    Mr. Davis of Virginia. Yes, also in terms of people living 
in the trailers and being cramped and everything else.
    Mr. Owens. OK. As far as the trafficking, I only can tell 
you that I just told you what I saw on that particular flight.
    As far as the work, the conditions of the people working, I 
can only tell you what I saw while I was there. He came later. 
I don't know. I wasn't.
    Mr. Davis of Virginia. So it might have been cleared up, 
OK.
    Now if I understand correctly, you are currently residing 
in Cambodia.
    Mr. Owens. That is correct.
    Mr. Davis of Virginia. And that you were there at the start 
of the week.
    Mr. Owens. Yes, sir.
    Mr. Davis of Virginia. Who paid for your travel here today? 
The taxpayers?
    Mr. Owens. Yes.
    Mr. Davis of Virginia. Have you had any problems relating 
to your security clearance with the U.S. Government?
    Mr. Owens. Not to my knowledge.
    Mr. Davis of Virginia. Was your security clearance valid 
when you signed a contract to work at First Kuwaiti?
    Mr. Owens. As far as I know, yes.
    Mr. Davis of Virginia. Who was sponsoring your clearance?
    Mr. Owens. Hardline Installation.
    Mr. Davis of Virginia. When you signed a contract with 
First Kuwaiti, were you also under contract to work for another 
company?
    Mr. Owens. When I finished the Embassy in Cambodia, I 
signed a contingent offer to go to Nicaragua and work on the 
Embassy there. That job got construction delays. So I e-mailed 
Nicaragua and told them I can't wait until you are ready for 
me, and then I went to Iraq.
    Mr. Davis of Virginia. Did First Kuwaiti ever complain to 
you about your job performance such as drinking on the job or 
being late for work?
    Mr. Owens. No.
    Mr. Davis of Virginia. You never had any complaints? Did 
you know that you were being destined for Iraq on that plane?
    Mr. Owens. Yes, I did.
    Mr. Davis of Virginia. OK.
    Do you know whether those other employees signed documents 
indicating that Iraq was their destination or not? Do you have 
any knowledge of that?
    Mr. Owens. I just saw their boarding passes were for Dubai.
    Mr. Davis of Virginia. Let me just say I see my time is up.
    I just want to note one thing on Mr. Mayberry, that he is a 
previous whistleblower on another case against KBR who 
testified here earlier today. So he is an experienced 
whistleblower, and I know that he will look forward to our 
questions.
    Thank you.
    Mr. Tierney. That would be to drive home the point that he 
doesn't want to tolerate bad things that are happening, I 
guess.
    Ms. Watson, you are recognized for 5 minutes.
    Mr. Davis of Virginia. No, just that he is experienced, and 
the record speaks for itself. That is what it is about.
    Mr. Tierney. Ms. Watson is recognized for 5 minutes.
    Mr. Issa. Mr. Chairman, could we have regular order, 
please?
    Ms. Watson. If I may, please, I believe this is my time. 
Thank you.
    I want to thank these two gentlemen for coming here. There 
is no intent on our part to abuse you or to give you leading 
statements. I would hope that you would be straightforward when 
we raise these questions and not feel intimidated. That is not 
our intent.
    The way I do it, I try to get to the truth. If something 
that I ask you is misleading or you don't understand it, ask me 
to clarify it. I don't intend to have you make statements that 
you wouldn't make under other circumstances. I just want to set 
the ground rules.
    I am going to direct this to Mr. Mayberry. I have been 
reading through some background information, and it seems like 
the safety conditions and standards where you were working 
within the Green Zone were not what we would require on other 
jobs. True or not true?
    Mr. Mayberry. True.
    Ms. Watson. Was there an incident of a gentleman that was 
just described up on a high bar without safety equipment, he 
fell and broke his back?
    Mr. Mayberry. No, ma'am, he didn't. This gentleman didn't 
break his back.
    When I had seen him up on the scaffolding, he had no 
harnesses on at all, and I had noticed that he was kind of 
dancing around and having fun, and that is when I had started 
yelling and screaming to get him off of the site and off of the 
scaffolding because he had no harness. It is not a place to 
play.
    It took about 10 minutes. Once they got him on the ground 
is when I found out he was intoxicated. The intoxication that 
he had, he had a pocket of some sort of painkiller that he got 
from the clinic, and that is what he was taking. I couldn't 
find a translator to get the full story of why he was taking it 
or what the pain was being treated for.
    I talked to First Kuwaiti management in regards to this 
gentleman, and they said, put him back on the site and tell his 
foreman to work him somewhere else.
    Ms. Watson. Now let me just ask you, the project was being 
managed by First Kuwaiti?
    Mr. Mayberry. Yes, ma'am.
    Ms. Watson. Mary Francis was the overseer?
    Mr. Mayberry. It was my understanding that Mary French was 
the Embassy project manager over the whole facility.
    Ms. Watson. I see.
    Who was she employed by? The U.S. Embassy?
    Mr. Mayberry. The State Department.
    Ms. Watson. So she was to oversee. The employer was First 
Kuwaiti?
    Mr. Mayberry. Yes, ma'am.
    Ms. Watson. All right. Who was directly responsible for the 
health and the safety of the employees on the project?
    Mr. Mayberry. First Kuwaiti.
    Ms. Watson. I see.
    First Kuwaiti has personnel there on the project?
    Mr. Mayberry. Yes, ma'am.
    Ms. Watson. That would be Mary French.
    Mr. Mayberry. I don't know the relationship with Mary 
French and First Kuwaiti. All I know is I was introduced to 
Mary French of the State Department. She wanted me to work for 
her. Once I got on to meet with the First Kuwaiti people, they 
informed me I was to work for him.
    So I, in turn, sent e-mail stateside to find out exactly 
what the contract stated as and which company I was actually 
working for.
    Ms. Watson. Who would you say was responsible for the 
health and the safety of those employees?
    Mr. Mayberry. That would be First Kuwaiti.
    Ms. Watson. I see. Now were their employees Kuwaitis?
    Mr. Owens. No, ma'am.
    Ms. Watson. Who were their supervisors, their overseers?
    Mr. Owens. The management staff of First Kuwaiti. All of 
the ones that I worked with were Lebanese.
    Ms. Watson. I see.
    Mr. Owens, Mr. Mayberry, is it true that the workers on the 
project were denied access to the PX or the BX?
    Mr. Owens. That is correct.
    Ms. Watson. I see. Is it true that they could not go in 
there and get medications for whatever was ailing them? 
Whichever one.
    Mr. Owens. That is correct.
    Ms. Watson. Was this issue ever taken to Mary French?
    Mr. Owens. Yes.
    Ms. Watson. What did Mary French do about it when there 
were injuries, scratches, cuts and so on? What did she do about 
that, not allowing them to go into the PX?
    Mr. Owens. She didn't do anything.
    Mr. Tierney. Thank you, Ms. Watson. Your time is expired.
    Ms. Watson. Thank you.
    Mr. Issa, you are recognized for 5 minutes.
    Mr. Issa. Mr. Mayberry, apparently, this isn't the first 
time you have been in front of us. On June 13, 2005, you were 
in front of the Senate's all-Democrat Policy Committee, is that 
true?
    Mr. Mayberry. Yes, sir.
    Mr. Issa. At that time, oddly enough, you were, I would say 
vilifying, but I will use the term, speaking about failures of 
KBR, a division of Halliburton, is that right?
    Mr. Mayberry. Correct.
    Mr. Issa. In this previous employment, when you were hired 
by a division of Halliburton, KBR who testified immediately 
before you as skilled contractors which they are, you went on 
for a very long time talking about many of the same things that 
are going on here today, isn't that true?
    Mr. Mayberry. No, it is not.
    Mr. Issa. So when you talked about they were supposed to 
feed Turkish and Filipino meals but they didn't, they were 
supposed to pay something but they didn't, isn't that somewhat 
similar to what we are talking about today?
    Mr. Mayberry. No, sir, not at all.
    Mr. Issa. When you were talking about KBR in 2004, you were 
talking about a really good company that was doing their job 
and respecting the taxpayers' money, right?
    Mr. Mayberry. Sir, I did not hear the beginning of that 
through the noise.
    Mr. Issa. What I am understanding is you are a professional 
whistleblower. This is not the first time that you have taken a 
job for a relatively short period of time and then come talked 
to Congress about what you have seen.
    If this is such a bad place and there are so many abuses, 
is there a particular reason you keep coming back to these 
employers?
    Mr. Mayberry. Well, first let me address your--
    Mr. Issa. No, no. Answer my question. My time is very 
limited here.
    Mr. Mayberry. No, sir.
    Mr. Tierney. Mr. Issa, if you can't ask the witness a 
question, then kindly give him the courtesy of letting him 
answer.
    Mr. Issa. Mr. Chairman, this is my time in regular order.
    Mr. Tierney. Try to use questions and answers then, please.
    Mr. Issa. Mr. Chairman, if he would answer my question.
    I asked if this was the first time. You said it wasn't.
    I asked if you are a professional whistleblower. You 
started answering another question.
    Because you weren't responsive, I asked why do you keep 
taking jobs in Iraq if in fact all you seem to observe is a 
very dangerous place.
    Would you answer just that question, why you keep taking 
jobs in Iraq if it is such a bad place in which contractors do 
terrible things? Is that for the purpose of whistleblowing or 
is that for the purpose of receiving a payroll and doing a good 
job, which is it?
    Mr. Mayberry. It is in regards to supporting the United 
States and my armed forces is why I take contracts into Iraq.
    Mr. Issa. OK. Thank you very much. I appreciate the answer 
that you go back to Iraq out of patriotism to work for 
contractors.
    How much were you paid when you worked for KBR? What was 
your annual salary?
    Mr. Mayberry. I am legally prevented from answering that 
question.
    Mr. Issa. Mr. Chairman, could you instruct that telling 
what your salary was there is not a legal restriction as far as 
I know?
    Mr. Tierney. The witness will make that determination.
    Mr. Issa. OK. The witness is refusing to answer.
    Mr. Tierney. I think we recorded the witness--
    Mr. Issa. Mr. Chairman, this is my time. Thank you.
    Mr. Owens, I am a little concerned. I am going to ask you a 
question that I think you were asked, but I am going to give 
you one more chance to answer.
    Yesterday, did you tell the staff, bipartisan staff, when 
they asked the question of were you in fact in litigation, you 
said no. Is that true, yesterday?
    I am not asking about today or whether it is true, but did 
you say that yesterday?
    Mr. Owens. Here, under oath, I am legally prevented from 
answering that question.
    Mr. Issa. So, Mr. Owens, are you saying that you are 
legally prevented from answering the question about what you 
said yesterday to congressional staff?
    Mr. Owens. Here, under oath, I am legally prevented from 
answering that question.
    Mr. Issa. Mr. Owens, are you taking your rights under the 
fifth amendment? Are you asserting your rights to protect 
yourself from incrimination here today?
    Mr. Owens. As far as the fifth amendment, no.
    Mr. Issa. You are not? You are not.
    So you are not refusing to answer to protect yourself from 
any false statement you may have made yesterday?
    Mr. Owens. I have made no false statements under oath.
    Mr. Issa. Mr. Chairman, I would like to ask that the 
witness be subpoenaed to be compelled to answer the question as 
to what he said to our staff yesterday relative to what he is 
refusing to answer today. I think that is a reasonable request, 
and I would ask the Chair to entertain that.
    Chairman Waxman [presiding]. As I understand it, the 
witness is under an order because of a sealed court case not to 
talk about the litigation, is that the understanding?
    Mr. Owens. I am legally prevented from answering that 
question.
    Mr. Issa. Mr. Chairman, my request for the subpoena is as 
to what he said to our staff on a bipartisan basis yesterday, 
not what he is prevented from saying but what he may have said 
yesterday because otherwise I think we have to bring our staff 
in front of us to determine whether or not there is a truthful 
answer or not. That is all I am asking for.
    We do have an obligation to find out whether the witnesses' 
other testimony is likely to be truthful based on whether they 
said truthful things to our own staff on a bipartisan basis.
    Chairman Waxman. Well, I will take it under submission. I 
am not prepared to accept your recommendation.
    Mr. Issa. I appreciate that. If I could just reclaim the 
time I would have had, I will be very brief.
    Mr. Owens, you and Mr. Mayberry both said that you only had 
your testimony here today, to the ranking member, you said that 
it was only for spell check, is that correct?
    Mr. Owens. Yes. I wrote it out, and they checked it for me.
    Mr. Issa. When GAO reports to us that they worked with the 
witnesses, it implies to me that you had conversations or 
correspondence or discussed what was going to be in your 
statement in preparation for making it. Is that true?
    In other words, you had conversations about what would be 
in your statement or some other communication before you wrote 
it, before they spell-checked it. Is that the correct order?
    Mr. Owens. I answered questions that they asked me.
    Mr. Issa. But we are talking about your opening statement 
for both of you. Did you write your opening statement without 
ever talking to GAO or did you operate in an environment in 
which you had discussions with Government officials, wrote your 
statements and then they spell-checked them?
    Mr. Mayberry. Could I address this?
    Mr. Issa. Yes, Mr. Mayberry.
    Mr. Mayberry. Thank you.
    We were instructed that we needed statements wrote. We 
wrote those statements once we left the meetings yesterday. We 
started on those statements.
    Mine was completed and forwarded to an e-mail address that 
I was provided which was Andrew Wright and David Turk. They 
both had my statement prior to being contacted again by the 
gentleman, David Turk, that he had somebody that could be a 
third party and look at my statement and spell check it and 
punctuate the statement.
    Mr. Issa. I appreciate that.
    Thank you, Mr. Chairman. I believe that it has been clear 
that there was a meeting, then a statement, then a spell check.
    I yield back.
    Chairman Waxman. The gentleman's time has expired.
    The Chair now recognizes Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Owens, where were you born?
    Mr. Owens. Long Island, NY.
    Ms. McCollum. You were a product of the school system 
there. You are a proud American. I am assuming that you, like 
Mr. Mayberry, as a U.S. citizen, went forward to do this job 
and work on other embassies. Why? It is dangerous work, and it 
is work that takes you away from those you love.
    Mr. Owens. I like working on U.S. embassies. It is 
interesting the way they are built, and I enjoy construction 
work.
    Ms. McCollum. I appreciate your doing that.
    Mr. Mayberry, you said that you felt that this was a way in 
which as a U.S. citizen--I am paraphrasing so please correct me 
if I am wrong--that you were giving back to our country by 
doing the job that you were doing.
    Mr. Mayberry. Yes, ma'am.
    Ms. McCollum. As American citizens, as people who are proud 
of this country and knowing that this is a U.S. Embassy 
facility that is being built, it appears to me, Mr. Owens, that 
you were quite alarmed when you found out that there were 
individuals on the plane, coming to work on a U.S. Embassy, 
something that you were very proud of doing, that had no idea 
what their destination was going to be. In fact, they thought 
it was a very different destination.
    How did that make you feel as an American?
    Mr. Owens. On that plane ride, hardly nobody spoke any 
English. I don't know what those guys were thinking. Like I 
said, they had boarding passes for Dubai. I don't even know if 
they could have read those boarding passes.
    I don't know, but all I can say is they looked very 
confused the whole time I saw them, and it bothered me a little 
bit. It just kind of made me feel bad because I think some of 
those guys were really scared once they found out where they 
were.
    Ms. McCollum. Mr. Owens, did you see any of them after you 
were on the ground on the site, the individuals you were on the 
plane with?
    Mr. Owens. Yes. I made friends. There were two boys from 
Sierra Leone on the plane, and I had worked in West Africa 
before. So we had a lot in common to talk about, and I made 
friends with them, and I saw them onsite after.
    Ms. McCollum. Did they know that they were coming to 
Baghdad?
    Mr. Owens. The two Sierra Leoneans didn't know they were 
going to Baghdad, but they had boarding passes for Dubai.
    Ms. McCollum. But they had boarding passes for Dubai.
    Mr. Owens. That is correct.
    Ms. McCollum. In your encounters with any of the other 
individuals that were there, even though there were great 
language barriers, were any expressing confusion that they were 
there in the wrong place and that they needed to be some other 
place?
    Mr. Owens. I had heard that from a lot of people over 
there. Whether it was the exact people on the plane, I don't 
know.
    It is not a nice thing to say when I say that they kind of 
look alike, but they all dressed alike and their facial 
features. It would have been hard for me to remember one from 
the plane ride and see him in a crowd of 200 people and know 
that it was him.
    Ms. McCollum. Mr. Owens, I really appreciate your honesty 
in answering my questions.
    Mr. Mayberry, what was your impression as an American, as a 
citizen, for not only the way that you saw the workers being 
treated but for stories that you heard or things that you can 
tell us that you witnessed about individuals feeling that they 
were all of a sudden in the wrong place at the wrong time?
    Mr. Mayberry. I had seen the reaction on the airplane when 
the captain came on board the PA system and stated that the 
plane was headed to Baghdad. I witnessed the reaction in that 
airplane.
    At that point, I was in fear for my own safety. No. 1, I 
was the only American on that whole airplane. The captain and 
the crew were not American, and the men on that airplane with 
me were not American.
    Once the men started getting upset and a weapon was pulled 
out of that back closet in the tail of the airplane by First 
Kuwaiti's manager, that is when I got a little more jumpy and 
kind of stayed to myself.
    The fear in the faces that I seen was remarkable. I never 
want to see it again.
    Ms. McCollum. Thank you, Mr. Mayberry. I want to thank you 
both as American citizens, people who are proud of the work 
that you do for your country and when you see something that 
you think is wrong, feel that in this country with freedom of 
speech and freedom to speak your mind openly to your own 
Government, that you felt like you were able to do that today.
    I want to once again thank you very much for coming 
forward.
    Mr. Owens. Thank you.
    Chairman Waxman. Thank you, Ms. McCollum.
    The Chair wants to recognize himself for his 5 minutes and 
yield to Mr. Tierney to ask some questions.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Chairman, I would just like to start by bringing you 
up. I know you had to go to another hearing on a very important 
matter.
    In your absence, because you came back in the middle of Mr. 
Issa's question, there was some discussion or inference from 
Mr. Issa about one of the witnesses' failures to comment on 
whether or not there was a particular lawsuit or whether he 
said there was a lawsuit.
    If, in fact, there is what is commonly known as qui tam 
lawsuit pending, if there is such a thing, it would be a sealed 
lawsuit as I mentioned before and Mr. Issa well knew. I think 
in that case of a sealed document, any party to that case would 
not be allowed to talk about it in public.
    I suggest that perhaps that we consult with the Department 
of Justice just to make sure that is firm and then let all the 
members of the panel know that so there won't be any 
disagreement on that, if that is acceptable to the chairman.
    Mr. Mayberry, let me ask you when you were first hired.
    Chairman Waxman. Will the gentleman yield?
    Mr. Tierney. Sure, I yield
    Chairman Waxman. Are you saying, in effect, that Mr. Issa 
was aware of the fact that they couldn't talk about this issue 
and then he was trying to impeach them, knowing they couldn't 
talk about that issue?
    Mr. Tierney. Well, I believe he was in the room when I 
clarified that the first time. I would have to check with 
people on that. Assuming he was, then he would have known at 
least my comments. Whether he agreed with it or accepted them 
or not is another thing.
    Chairman Waxman. The gentleman will proceed.
    Mr. Tierney. Thank you.
    Mr. Mayberry, you were hired by First Kuwaiti as a medic. 
Will you tell us what you know or let us know a bit about the 
medical facilities that were available to workers when you 
arrived at the Embassy site?
    Mr. Mayberry. When I arrived at the Embassy site, the 
medical clinics, they looked more like a break area. They were 
filthy inside. There were beds in there and gentlemen laying on 
them and sleeping on them.
    On the reception counter, coming into the clinic, were all 
these little blister packs with different colors of medication 
in them, and I asked what they were. One of the Indian medics 
that spoke a little bit of English stated that it was the 
medication that they use.
    I went over to the second medical facility which was on the 
constructionsite and found the same there.
    So at that time, I had a meeting that afternoon with Mary 
French of the State Department. She had asked me what my first 
look around the camp was, and that is when I had started 
talking to her about the lack of supplies, band-aids. The day I 
got on camp, they were using paper towels and toilet paper and 
duct tape as bandages.
    So I talked to her about the supplies, and she had stated 
that it was First Kuwaiti's responsibility. I went to First 
Kuwaiti and asked for supplies, and they said they don't have 
any.
    I, in turn, turned to the military for assistance, and at 
the time the military provided me with eight jump packs which 
are very close to emergency room quality. Two of them were 
supplied to the State Department, two of them for each clinic 
and one per ambulance, counted for all eight bags.
    Now when I got into Kuwait, the medical equipment and 
supplies would have been a whole different story if I had 
gotten my luggage. My luggage was happily camped out in Dubai 
with the airplane that I was supposed to be on.
    Mr. Tierney. Did you make a report to the Department of 
Defense and the Human Trafficking Office in the State 
Department about the condition of the medical facilities?
    Mr. Mayberry. Sir, my report was filed with the State 
Department, Mary French. It was filed with First Kuwaiti 
management. It was also filed through the medical facility in 
Baghdad. The medical facility in Baghdad sent it up a chain of 
several offers to a State Department doctor.
    Mr. Tierney. When was it that you were making these 
observations, what month and what year?
    Mr. Mayberry. March 2006.
    Mr. Tierney. Now in September, September 18, 2006, a 
contract modification was added to the First Kuwaiti contract 
dealing with medical services. It added $1.375 million to the 
contract. The provision noted that these extra funds were to 
pay for ``a medical trailer, all medical instruments, doctor, 
dentist, eight nurses, two ambulance teams, cleaning services 
for the medical facilities and consumables.''
    I guess we can infer from the existing medical facilities 
and staff prior to that contract modification, that there may 
have been a difference.
    Did what I just describe in that contract modification 
comport with what you saw in March 2006? Was that the condition 
of the facilities?
    Eight nurses, two ambulances, a doctor, medical 
instruments, medical trailer, cleaning services, consumables, 
were all those things in good condition when you were there in 
March 2006?
    Mr. Mayberry. To be honest with you, sir, the only thing 
that was in good condition at those clinics was the Indian 
nurses.
    Mr. Tierney. Thank you. I yield back.
    Chairman Waxman. The gentleman's time is expired.
    Ms. Watson.
    Ms. Watson. I don't understand the use of the term, 
professional whistleblower, and to accuse our witnesses of 
being professional whistleblowers is an inference to doing this 
for professional gain.
    Let me ask Mr. Owens and Mr. Mayberry. Was your motivation 
professional monetary gain when you reported what you saw were 
misdeeds, what you saw were violations of codes, what you saw 
was maltreatment, Mr. Owens?
    Mr. Owens. I have never done anything like this before, you 
know, testify against anybody for anything.
    Mr. Tierney [presiding]. Ms. Watson, I am going to take the 
liberty of interrupting you only because we are not doing 
multiple rounds.
    Ms. Watson. Why was I called on?
    Mr. Tierney. It is not your fault. With Mr. Waxman coming 
back and forth, we prefer that you would not.
    Ms. Watson. Well, can they answer my question, please? 
Thank you.
    Mr. Tierney. I think he just did.
    Ms. Watson. Well, Mr. Mayberry.
    Mr. Tierney. I am sorry. You were distracted. He said he 
has never done anything like that before.
    So thank you.
    I want to thank both of our witnesses for being here and 
testifying today. I know it was not an easy thing to do. I 
appreciate the distances that you have traveled and the 
sacrifices that you have made.
    We will take about a minute break here in recess, we will 
the next panel come on directly afterwards. Thank you.
    Mr. Owens. Thank you, sir.
    Mr. Issa. Mr. Chairman, I just want to be recognized to ask 
that our staff be provided with the original documents in 
addition to the printed statements so that we can compare the 
original documents submitted to the Democrats with those that 
were in fact the final copies. That would be normally within 
our rules. Could I ask that those be granted as soon as they 
are available?
    Mr. Tierney. We will certainly take a look at that request.
    Mr. Issa. Thank you very much, Mr. Chairman.
    [Recess.]
    Mr. Tierney. The committee and subcommittee will now hear 
testimony from our final panel.
    I want to thank you all for your patience in waiting.
    Mr. Kennedy, I keep seeing you with different hats on.
    Mr. Kennedy. It is always a pleasure to see you, Mr. 
Chairman.
    Mr. Tierney. I take it you have moved?
    Mr. Kennedy. Yes, sir. I departed the Director of National 
Intelligence. I am now Director of Management Policy at the 
State Department.
    Mr. Tierney. I just thought there were like 8,000 Patrick 
Kennedys out there. I wasn't sure.
    I want to introduce our next panel of witnesses here to 
offer information about First Kuwaiti's labor practices.
    They are: Major General, retired, Charles E. Williams, who 
is the Director, Office of Overseas Building Operations, U.S. 
State Department; Ambassador Patrick Kennedy, Director, Office 
of Management Policy, U.S. State Department; Mr. William Moser, 
Deputy Assistant Secretary for Acquisitions, U.S. Department of 
State; and Mr. Howard J. Krongard, Inspector General, U.S. 
Department of State.
    I want to thank you all for your service to our country.
    I want to also indicate that your full witness statements 
will be entered onto the record and the transcript of this 
briefing. We ask that you try to summarize that as best you can 
within the 5-minutes. We will try to be a little lenient but 
appreciate that you will try to stay as close within that limit 
as you can.
    It is the policy of the committee and the subcommittee to 
swear witnesses before they testify.
    [Witnesses sworn.]
    Mr. Tierney. The record will please indicate that the 
witnesses have answered in the affirmative.
    Again, I am going to ask that you please keep your opening 
statement as close as you can to the 5-minutes on that.
    General Williams, perhaps you would care to start us.
    Mr. Moser, I think we put the name plates out different, 
But General Williams, if you want to start, then we will go 
from there.

  STATEMENTS OF MAJOR GENERAL, RETIRED, CHARLES E. WILLIAMS, 
    DIRECTOR, OFFICE OF OVERSEAS BUILDING OPERATIONS, U.S. 
DEPARTMENT OF STATE; WILLIAM MOSER, DEPUTY ASSISTANT SECRETARY 
 FOR ACQUISITIONS, U.S. DEPARTMENT OF STATE; PATRICK KENNEDY, 
   DIRECTOR, OFFICE OF MANAGEMENT POLICY, U.S. DEPARTMENT OF 
    STATE; AND HOWARD J. KRONGARD, INSPECTOR GENERAL, U.S. 
                      DEPARTMENT OF STATE

    STATEMENT OF MAJOR GENERAL, RETIRED, CHARLES E. WILLIAMS

    General Williams. Mr. Chairman, thank you and committee 
members. I am honored to be here to discuss the State 
Department's diplomatic construction project in Baghdad.
    I have a prepared written testimony, and I have asked the 
committee and it has agreed that it be entered into the record.
    I would like to begin today by putting the Baghdad project 
into the context of our larger Overseas Building Operations 
program. It has been my privilege to come out of retirement and 
serve as the OBO, Director of the Overseas Building Operations 
for the past 6\1/2\ years.
    Before coming to OBO, I worked in the private sector and 
served 29 years in the U.S. Army and the Army Corps of 
Engineers. My career spans in the construction field over 40 
years.
    In 2001, when I became the Director of OBO, the Department 
was building on an average of one Embassy per year. In 2006, 
OBO opened 14 new facilities. Our goal this year is to open 16.
    Our new Embassy compounds are multi buildings, state-of-
the-art facilities, meeting the highest security standards for 
environmental energy and efficiency.
    My written testimony states that since 2001, with strong 
support from the Congress, OBO has completed 47 facilities. We 
have moved 12,566 U.S. Government employees out of harm's way 
by providing safe, secure and functional facilities, many 
located in the most dangerous parts of the world.
    In fact, since my written statement was submitted, updated 
numbers show that we have as of today completed 50 of these new 
facilities. We have had three more reach completion since we 
started this process.
    We currently have 31 additional facilities under 
management. OBO's construction portfolio today is valued at 
over $5 billion.
    OBO has revolutionized its management approach with an 
emphasis on discipline, accountability, results, transparency 
and credibility. In order to replace the 190 aging and 
unsecured Embassy facilities, OBO reorganized and streamlined 
the planning, design and construction processes.
    We engage often with the construction industry through our 
award-winning industry advisor panel and our contractor 
partners. We have a true alliance with the GAO and, in 2006, 
GAO found that OBO had reduced the time to construct new 
facilities by 2 years and 9 months from the 1980's and 1990's.
    We have also achieved a high degree of worker safety. In 
fiscal year 2006, the OBO accident rate was only 6 percent of 
the OSHA rate.
    Mr. Chairman, now I turn to the new Embassy in Iraq which 
is among the most challenging projects that we have undertaken.
    In 2005, Congress appropriated $592 million for this 
project. We plan to finish the project in 24 months, a 
timeframe consistent with the commitments we made to the host 
government. OBO established an office with the sole 
responsibility for executing the Baghdad project and briefed 
the concept to the Congress.
    The compound contains 24 buildings and occupies 65 acres of 
the 104 acre site. The Baghdad NEC, new Embassy compound--that 
is NEC--is not luxurious. Its offices and housing are 
equivalent to other new construction around the world.
    The project is on schedule. It is at budget with completion 
slated for this September.
    As to quality, OBO is proud of its employees' and 
contractors' work on this project. We have received numerous 
accolades from our tenants as to the extremely high quality of 
construction. It is among the best that OBO has managed.
    The Baghdad NEC, as with all of our new Embassy compounds, 
will undergo a standard accreditation process to ensure that 
the facility meets all applicable safety and security standards 
prior to occupancy.
    A punch list will most likely be generated consisting of 
items needing small corrections and modifications. A punch list 
is a routine feature of every building project whether you are 
dealing with a small remodeling project to your home or 
constructing a major building. For each new Embassy compound 
project, OBO aligns with the contractor to address these punch 
list items in an orderly manner.
    Mr. Chairman, I would like to turn next to the temporary 
local guard camp. The camp consists of--
    Mr. Tierney. Major General, since your comments are already 
on the record, I would add that you go proceed but try to wrap 
it up as best you can in the summary.
    General Williams. I will do that.
    Mr. Tierney. Thank you, sir.
    General Williams. OK. The camp consists of prefabricated 
trailers where the local employees who supply guard service 
will reside.
    The issue of installing a temporary camp on some of the 
remaining 104 acres came up about 12 months after we were under 
construction for the new Embassy compound. We had a very 
ambitious period of 4 months to do this.
    We encountered 70 days of road closures. Obviously, 
trailers having to be brought one on a truck at a time, we had 
2 months delay. So this is what has caused the project not to 
be delivered when it was promised.
    Let me conclude with the emphasis that the responsibility 
of OBO is to build facilities that are required to our 
diplomatic standards and requirements overseas. We follow the 
direction of the Department on staffing numbers and 
requirements and build accordingly.
    I want to re-emphasize that the Baghdad new Embassy 
compound will meet standards, will be completed on schedule and 
within budget.
    I would be pleased now to respond to your questions.
    Thank you very much, Mr. Chair
    [The prepared statement of General Williams follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.053
    
    [GRAPHIC] [TIFF OMITTED] 43507.054
    
    [GRAPHIC] [TIFF OMITTED] 43507.055
    
    [GRAPHIC] [TIFF OMITTED] 43507.056
    
    [GRAPHIC] [TIFF OMITTED] 43507.057
    
    [GRAPHIC] [TIFF OMITTED] 43507.058
    
    [GRAPHIC] [TIFF OMITTED] 43507.059
    
    Mr. Tierney. Thank you, General.
    Ambassador Kennedy, would you care to give your remarks?

                  STATEMENT OF PATRICK KENNEDY

    Mr. Kennedy. Thank you very much, Mr. Chairman, members of 
the committee. Thank you for giving me the opportunity to 
testify before you today.
    I first want to offer you a brief perspective of someone 
who has served in Baghdad, and I also want to emphasize the 
importance of the new Embassy compound for the safety of our 
employees there.
    I recently became Director of the Office of Management 
Policy in the State Department. As one of my key duties, I have 
been charged by the Secretary, the Deputy Secretary and the 
Under Secretary for Management with ensuring that Ambassador 
Ryan Crocker has everything he needs within reason in terms of 
support of management.
    Now let me turn briefly to the subject of this hearing.
    I want to underline the distinction made by General 
Williams between the guard camp project in Baghdad and the new 
Embassy project. They are completely separate, both physically 
and contractually. The camp is temporary and largely a trailer 
park while the NEC is a group of permanent structures.
    I have been recently in Baghdad and also communicate 
regularly with Ambassador Crocker. I have been meeting 
regularly also with Chuck Williams. There is a quality 
assurance process in place, and there will be a vigorous 
inspection procedure prior to our acceptance of the NEC as 
there is for all our new Embassy compounds.
    On the guard camp, I view the exchange of cables between 
the Embassy and OBO as part of the creative tension that exists 
in getting any project right. There have been problems, but 
they are problems that First Kuwaiti is fixing as part of their 
acceptance of the guard camp, our acceptance of the guard camp. 
This is a standard punch list procedure that occurs on any 
construction project.
    Mr. Chairman, that concludes my statement. I am at your 
disposal for questions.
    [The prepared statement of Mr. Kennedy follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.060
    
    [GRAPHIC] [TIFF OMITTED] 43507.061
    
    Mr. Tierney. Thank you, Ambassador.
    Mr. Moser.
    Mr. Moser. I do not have a statement, Mr. Chairman.
    Mr. Tierney. Mr. Krongard.

                STATEMENT OF HOWARD J. KRONGARD

    Mr. Krongard. Thank you, Mr. Chairman, ranking member and 
thanks to all of you for inviting me to discuss the Department 
of State Office of Inspector General's memorandum on its review 
of the construction workers camp at the new Embassy compound in 
Baghdad which I will refer to as the NEC, the new Embassy 
compound.
    I personally have made two visits to the NEC 
constructionsite. The first visit was in November 2005. That 
visit to the NEC was a routine part of my trip to Baghdad and 
was not prompted by any specific allegations of wrongdoing.
    I walked and rode through most of the site including the 
camp which housed the construction workers, and I spoke 
randomly with members of the work force which consisted of many 
different nationalities. Nothing came to my attention during 
that visit, evidencing any trafficking in persons violations or 
human rights abuses.
    In the months following my visit, various allegations came 
to my attention regarding abuses and misconduct at the NEC 
including ones having to do with food, passports, entry into 
Iraq, pay, physical abuse, living facilities and medical 
facilities. Therefore, in June 2006, I contacted the Multi-
National Force-Iraq Inspector General who had previously done 
inspections of conditions in camps in Iraq, and I proposed that 
we conduct a joint review of the construction workers camp at 
the NEC.
    At that time, we agreed to conduct the review together 
onsite in August 2006. Because MNF-I IG had experience in 
inspecting life support areas across Iraq and was planning to 
conduct a large number of such inspections, we agreed to use 
the work plan suggested by them. In mid-July, however, MNF-I IG 
was required to postpone the review indefinitely due to other 
higher priority matters.
    I, however, believed the allegations warranted an early 
review in spite of this delay. So the Deputy Inspector General 
and I traveled to Iraq in early September and carried out a 
review according to the work plan suggested by MNF-I IG for a 
review focused on trafficking in persons and the fair and 
ethical treatment of a foreign work force.
    It is important to note that the review was conducted in a 
necessarily limited scope. It did not constitute an audit. It 
consisted essentially of agreed upon procedures or limited 
procedures and was designed to provide negative assurance 
rather than attestation.
    The review included interviews with senior State Department 
officials and contracting authorities in both the United States 
and Baghdad, private interviews with workers of at least four 
nationalities, physical review of the entire NEC site including 
kitchen and dining facilities, medical clinic, recreational 
facilities, computer cafe, telephone access areas, commissary, 
management offices and other areas.
    It included inspection of the private living quarters of 
each interviewee and numerous other workers randomly selected, 
inspection of the various group facilities such as shower and 
lavatory, barbecue, religious, recreation and sport areas, and 
questions asked of workers we randomly encountered during the 
physical inspection.
    A summary of the responses received from the workers 
interviewed and the results of the physical inspection are set 
forth in the memorandum which is attached to my statement which 
has been publicly available for several months.
    Because my review was limited, I continued to seek 
additional inspection from MNF-1 IG.
    While that inspection was being scheduled, the management 
counselor and at least four other senior officials from the 
Embassy, including the regional medical officer and I believe 
the assistant regional security officer, visited the workers 
camp, provided observations that are included in the memorandum 
and reported that in general the camp was adequate for its 
purposes and the basic needs of food, housing and sanitation 
were being met.
    On two separate occasions in December 2006, an MNF-I IG 
team also inspected the camp. MNF-I IG's procedures and 
experience were significantly more extensive than my own. MNF-I 
IG found no evidence indicating the presence of severe forms of 
trafficking.
    After setting forth their inspections results, MNF-I IG 
concluded that except for recruitment fees illegal in some 
workers' country of origin, there was no evidence of 
trafficking in persons violations and of the 58 areas inspected 
by MNF-I IG across Iraq, the NEC camp was rated in the top 
third with above average quality of life conditions. A copy of 
MNF-I IG's report to me was appended to the memorandum as well.
    Based on all of the foregoing--including my November 2005 
visit, our September 2006 review, management's visit in 
November 2006 and MNF-I IG's two inspections in December 2006--
nothing came to our attention that caused us to believe that 
trafficking in persons violations or violations of the type I 
mentioned at the outset here today and in the memorandum 
occurred at the construction workers camp at the new Embassy 
compound.
    At the appropriate time, I will be pleased to answer your 
questions. Thank you.
    [The prepared statement of Mr. Krongard follows:]
    [GRAPHIC] [TIFF OMITTED] 43507.062
    
    [GRAPHIC] [TIFF OMITTED] 43507.063
    
    [GRAPHIC] [TIFF OMITTED] 43507.064
    
    [GRAPHIC] [TIFF OMITTED] 43507.065
    
    [GRAPHIC] [TIFF OMITTED] 43507.066
    
    [GRAPHIC] [TIFF OMITTED] 43507.067
    
    [GRAPHIC] [TIFF OMITTED] 43507.068
    
    [GRAPHIC] [TIFF OMITTED] 43507.069
    
    [GRAPHIC] [TIFF OMITTED] 43507.070
    
    [GRAPHIC] [TIFF OMITTED] 43507.071
    
    [GRAPHIC] [TIFF OMITTED] 43507.072
    
    [GRAPHIC] [TIFF OMITTED] 43507.073
    
    [GRAPHIC] [TIFF OMITTED] 43507.074
    
    [GRAPHIC] [TIFF OMITTED] 43507.075
    
    [GRAPHIC] [TIFF OMITTED] 43507.076
    
    [GRAPHIC] [TIFF OMITTED] 43507.077
    
    [GRAPHIC] [TIFF OMITTED] 43507.078
    
    Mr. Tierney. Thank you very much, Mr. Krongard.
    Mr. Platts, you are recognized for 5 minutes for 
questioning.
    Mr. Platts. Thank you, Mr. Chairman. I appreciate your 
hosting this hearing.
    I appreciate all of our witnesses for your testimony, and I 
apologize coming in midway through.
    General Williams, you may have addressed this as I came in, 
but just to reiterate if you did or to clarify. The current 
project, as far as being on time and on budget, where do we 
stand on the time and budgeting?
    General Williams. Thank you, Mr. Platts, for that question.
    We are at 96 percent complete. We are in the pre-
accreditation phase. We are on schedule to deliver in September 
as planned at the budget.
    Mr. Platts. What was the last part? At the budget?
    General Williams. At budget which is $592 million from a 
supplemental appropriation.
    Mr. Platts. I understand there is a number of contracts 
that relate to this complete project. Any of those are the cost 
type contracts?
    General Williams. We have no cost-plus contracts, 
Congressman, because we have experienced that we have done 50 
of these around the world over these last 6 years. We cannot 
control the costs in these very difficult places, particularly 
in a war zone, unless we use a firm fixed-price. This is a firm 
fixed-price contract.
    Mr. Platts. That has become the norm now.
    General Williams. That has become the norm, and our 
appropriators who support us here in the Congress concur in 
that and desire that.
    Mr. Platts. Of the contracts, there is one or more that are 
sole source contracts?
    Mr. Moser. There are actually two contracts that are sole 
source. The chancery compound for the construction of the 
unclassified areas of the chancery were sole source. That was 
done only after a competition produced no viable bidders. In 
other words, it was subsequent to the competition.
    The guard man camp that we discussed earlier today was also 
sole source, but that was done for the reasons in order to get 
a camp stood up as soon as possible so that guards could occupy 
a suitable facility and provide security to the facilities on 
the ground in Baghdad.
    Mr. Platts. Part of that basis for doing a sole source is 
if there is an urgent need.
    Mr. Moser. This one was done. The guard camp was done on 
the basis of urgent and compelling reasons.
    Mr. Platts. Who reviewed and approved those being sole 
source.
    Mr. Moser. The actual sole source justification was signed 
by Gregory Starr who is the head of the diplomatic security 
services. I think at that time he was one of the deputy 
assistant secretaries, deputy assistant secretaries in 
diplomatic security. It was reviewed by our attorney, our 
Acquisitions Attorney, Dennis Gallagher, and it was further 
reviewed by the head of the contracting authority who was part 
of my staff and that is Cathy Reed.
    Mr. Platts. OK.
    Mr. Chairman, I am going to yield the balance of my time to 
Mr. Issa. Thank you.
    General Williams. Thank you.
    Mr. Issa. I thank the gentleman.
    General Williams, this is the first time we have gotten to 
be together in this role, and I just want to commend you for 
your 6 years, certainly all your years of service but 6 years 
in which I have watched you turn around what was a national 
disgrace.
    The fact that we couldn't build safe embassies, have them 
delivered on time and certainly not on budget, you have changed 
all that. Whether it is the new center in Lebanon, I am not 
talking about the new Embassy but the visa center that you 
stood up there on time and when no one else had been able to do 
it in a decade. So you have made a great deal of progress.
    I just want to--Mr. Platts, actually finishing our 
question--having you take reference to the oversight and reform 
where it says allegations of waste, fraud and abuse in the U.S. 
Embassy in Iraq. Now as a matter of just pure fairness, is 
there any waste, fraud or abuse in the construction of the U.S. 
Embassy in Iraq when it is coming in on time and on budget?
    General Williams. Congressman, in my opinion, no. I travel 
all over the country, all over this world, 174 trips. I am in 
and out of Iraq.
    This project is going to be good quality. It is going to be 
accredited, and it is going to function. It is going to come in 
at or below the $592 million, and we are going to be on 
schedule.
    Mr. Issa. I thank you, and I just want to point out that 
$592 million is about what we are spending to be 2 or 3, 
actually 4 years late putting in something here at the House of 
Representatives. It is amazing that we can't find a way to 
build something right here in the shadow of the Capitol and 
come in on time and under budget.
    Just the opposite, we are double the time and double the 
budget and, by the way, although Washington is not the safest 
city, no one is going to call it Baghdad.
    Thank you. I yield back.
    Mr. Tierney. The gentleman yields back.
    Ms. Watson, you are recognized for 5 minutes.
    Ms. Watson. Thank you so much, and I want to thank our 
witnesses.
    Just yesterday, we passed a bill off the House floor that 
would prohibit permanent bases in Iraq. When this issue of 
building the largest Embassy in the world came to us, I thought 
it was very curious because we intend to leave sometime soon, I 
would hope, and we are investing all of this money in the 
Baghdad Embassy, about $600 million.
    I am wondering with the number of people--I think the 
population is somewhere around 68 million--we are building the 
largest Embassy in the world. That looks like we plan to stay 
there for a long time.
    Now what I understand is that the man in charge of the 
project for the State Department, James Golden, has not laid 
eyes on the constructionsite for the past 2 months and will not 
do so during the remainder of the project. Through interviews 
of Mr. Golden and his subordinate, Mary French, we have learned 
that the Ambassador ordered Mr. Golden to leave Iraq in May 
2007 and that he has not been allowed to return since then. In 
fact, Mr. Golden was escorted off the premises by armed guards.
    So, Ambassador Kennedy, this seems like an extraordinary 
step. Why did the Ambassador, Ambassador Crocker, expel Mr. 
Golden from the Embassy constructionsite he was supposed to 
oversee?
    I am compelled by what Major General Williams said, that 
this site is going to come in on time, come in on budget and 
come in with the kind of standards that will protect Americans 
and other people there.
    Ambassador Kennedy.
    Mr. Kennedy. Ms. Watson, the actual onsite project 
supervisor for the construction in Baghdad, who is delivering 
the project on time and on budget as General Williams said, is 
Mary French.
    Ms. Watson. Is she responsible for overseeing the project?
    General Williams. Yes. Yes, Congresswoman.
    Mr. Kennedy. Yes, ma'am.
    Ms. Watson. Well, why was Mr. Golden in that position and 
ordered out of Iraq?
    General Williams. Mr. Golden was never in the position as 
senior project director. Mary French was.
    Ms. Watson. Oh, so we have incorrect information in front 
of us?
    General Williams. Mr. Golden's function is managing 
director of our emergency project coordinating office under 
which the Baghdad project is one of the few. We have Harare. We 
have several projects under that.
    Ms. Watson. Is he still there?
    General Williams. He is not in Iraq. He is back doing.
    Ms. Watson. No, he is not in Iraq. That was the question.
    General Williams. He was never intended to be in Iraq 
permanently.
    Ms. Watson. Well, was he in Iraq?
    General Williams. No, he was never in Iraq permanently, 
Congresswoman. He made visits as I do and others do.
    Ms. Watson. Can you clarify something for me? I understand 
that Mr. Golden under his statement of work was to make site 
visits to Iraq, correct?
    General Williams. That is correct.
    Ms. Watson. OK. Did he ever make a site visit to Iraq?
    General Williams. Oh, yes, many times.
    Ms. Watson. That was my question earlier.
    General Williams. Yes, but he is not permanently stationed 
there.
    Ms. Watson. Hold on. Hold on. Yes is the answer.
    Now was he ordered out of Iraq?
    Mr. Kennedy. The Ambassador indicated that he felt 
comfortable that Mary French who was the onsite project 
supervisor would----
    Ms. Watson. Would you answer my question? Was Mr. Golden 
ordered out of Iraq? Am I making myself clear?
    Was Mr. Golden ordered out of Iraq?
    Mr. Kennedy. The Ambassador indicated that he did not wish 
Mr. Golden to come to Iraq on any further times.
    Ms. Watson. Very good. Can you tell me what led to that 
decision?
    Mr. Kennedy. There was a discussion about following 
procedures at Post, and the Ambassador indicated that he wished 
Ms. French, who was the onsite project supervisor, to finish 
the project as she had done so well all along.
    Ms. Watson. So Mr. Golden was there and got into a 
discussion with the Ambassador about the procedures, the 
oversight procedures, is that correct?
    Mr. Kennedy. No, it was not a discussion with the 
Ambassador. It was a discussion of operating procedures and Mr. 
Golden, as the General indicated, has other responsibilities, 
significant responsibilities such as our Embassy in Harare as 
part of his functions.
    Ms. Watson. Well, tell me this. If Ms. French was going to 
do the job that Mr. Golden thought he was to do and was told by 
the Ambassador to leave Iraq, then why did it take armed guards 
to remove him from the Embassy grounds?
    Mr. Kennedy. I can't since I wasn't there when Mr. Golden 
was interviewed.
    Ms. Watson. Can anyone at the table answer that?
    Chairman Waxman [presiding]. The gentlelady's time is 
expired.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman.
    General Williams, again, thanks for your many years since 
1960 of service to our country, service that I note you have 
done at very, very small compensation by comparison to private 
contractors. You have chosen to do that, I think, out of a 
sense of patriotism, and I very much appreciate it.
    Were you in the room for the previous panel?
    General Williams. I was in the side room, Congressman.
    Mr. Issa. OK, I appreciate that. I am going to followup on 
a little of that because you are the expert. You are the person 
with three decades in the Corps of Engineers and another two 
decades in construction.
    The estimate of the State Department, which would be you, 
was that these trailers had, at least in the specific 
allocation, $6,000 or $8,000 or less to make right some punch 
points of mistakes, some of them grievous but mistakes, bad 
wiring, absence of a junction box and so on. Is that your 
understanding?
    General Williams. Yes, Congressman, and let me just amplify 
here. For someone who served 2 years in Vietnam, I lived in a 
trailer park. I know what a trailer park is. I know the 
difference between a prefabricated trailer park and permanent 
construction. It is temporary.
    In my professional opinion after 40 years, you never get 
something that is temporary, correct. You are constantly 
improving it, and it is all a function of who follows who and 
etc.
    So none of this is alarming to the extent that it is 
putting us in a situation where we can't correct it. We have 
not paid the contractor. We have all protection there. These 
are punch list items. They happen on every single job. I just 
frankly don't see the issue here.
    It is temporary, defined to be anywhere from 1 to 2 years 
or less, and it is for an element that will not reside on the 
new Embassy compound.
    Mr. Issa. Thank you, General. You know I have characterized 
this as a hearing in search of a villain, so I don't see it 
either.
    The other day we did have some serious concerns about FEMA-
delivered trailers. Out of 100,000, 120,000, some of them just 
flat were bad.
    General Williams. Right.
    Mr. Issa. Now that was here in the United States where you 
make a phone call, and the things roll in pulled behind 
somebody's pickup truck or they drive themselves in or they 
come in on flatbed.
    Can you characterize what it takes in a combat zone to 
bring in modular housing, trailers--heck--water, anything, what 
people went through and why you would accept something that 
came in that wasn't quite up to snuff and make it right later 
rather than wait 4 months to get somebody inside housing?
    General Williams. Thank you for that question, Congressman, 
because these trailers were manufactured in a plant somewhere 
in the Middle East. They had to be transported one trailer, one 
truck at a time. There were 380 trailers that had to be 
transferred from as close as Kuwait but even further than 
Kuwait.
    It was a monumental task. We had 70 days of road closures, 
and the trailers arrived. They were as we specked them out.
    Yes, they had the odor of formaldehyde because it is my 
understanding that this is used for other preventive measures. 
To make certain that there were no issues with our trailers, we 
followed the protocol that was laid out by the manufacturer and 
that was to air them out for a period of time. Our industrial 
hygienists that are part of my staff concurred with that 
protocol.
    I have learned from Post recently that there is no odor 
left. We are going to go one step further and continue to 
monitor those trailers to make certain that everything is fine.
    I think, Congressman, we have done everything that we could 
do, can do under the conditions that we have had to work.
    Mr. Issa. One final question because I think it is a 
cultural one in nature, and I am very concerned that we respect 
cultures of people we bring into countries. If somebody is Sikh 
or some other religion where they must wear a turban and they 
will not wear a hard hat, what has been your experience when 
you have to deal with that?
    What is construction done like in India and so on?
    Is there essentially a reasonable allowance that has to be 
made when you have that situation that is not consistent 
culturally with our norms? Because that was in the earlier 
testimony.
    General Williams. Thank you, Congressman.
    As I mentioned, I have been all over the world, every 
corner, every country, 170 different hosts and locations. We 
are working in about half of those.
    Culture is an issue. I am very sensitive, and I make 
certain that our staff is very sensitive to culture. We have to 
be.
    I meet and greet workers. I don't spend much time in the 
embassies. Everyone knows that. I shake hands with them. I take 
pictures with them. I talk with them, and I am very sensitive 
about their religious cultures.
    Mary French handled this as delicately as anyone could 
handle it. Mary is not new at this. She has 32 years of 
experience, a registered architect. She knows what she is 
doing. Twenty years with Marriott, she has built buildings 
before. She is very sensible and reasonable and careful.
    Mr. Issa. Thank you, General. Thanks again for your 
service.
    I yield back, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Krongard, if I might ask you a few questions on that, I 
guess it was three to four individuals that you interviewed 
when you went on your inspection.
    Mr. Krongard. The formal interview process was about a half 
a dozen, roughly give or take, and then randomly I would say I 
spoke to probably several dozen others.
    Mr. Tierney. So six?
    Mr. Krongard. Six of the formal.
    Mr. Tierney. That you formally interviewed.
    Mr. Krongard. And about some 50 or more others.
    Mr. Tierney. You took notes and put that into a report?
    Mr. Krongard. The notes were hard to take, and they were on 
the backs of things because I didn't want people to think I 
was, I didn't want to make them uncomfortable and think that 
they were being transcribed or anything. But I took notes, and 
they found their way into my report.
    Mr. Tierney. Now First Kuwaiti is the one that selected the 
individuals whom you would interview. Is that a typical way to 
operate?
    Mr. Krongard. Well, in this particular circumstance, I had 
no other way of doing that, but that is why I particularly 
wandered around and spoke, as I say, to several dozen others 
selected randomly.
    Mr. Tierney. Why was there no other way for you to do that 
in this instance?
    Mr. Krongard. I don't know how, who I would have selected. 
I didn't have a roster of the hundreds or even thousands of 
employees that they had, and it is correct.
    I mean people have thrown out this conspiracy theory that 
somehow First Kuwaiti stacked the deck. I can only tell you 
that my sense of the demeanor of the people that I spoke to was 
that they were being open and honest with me. The people that I 
randomly selected, I have every confidence were being open with 
me.
    But most important, sir, I was not there in Iraq. MNF-I IG 
was there. They do this all the time. They are the experts at 
this. They inspected 58 camps. So I asked them to do even more, 
and their formal interview was, I think, 37 people, and they 
were confident that they had open and candid responses.
    Mr. Tierney. On your interviews with about 10 to 15 percent 
of the people that fluently spoke English, why didn't you take 
a translator with you?
    Mr. Krongard. I did have a translator with me when I went 
randomly. I don't know where your 10 or 15 percent comes from.
    Mr. Tierney. Ms. French.
    Mr. Krongard. Pardon?
    Mr. Tierney. Ms. French.
    Mr. Krongard. I mean I just don't know that, but there were 
certainly a large number of people that did speak English. But 
during my wandering around, I did have a translator with me.
    Mr. Tierney. You mentioned a series of allegations that led 
you to undertake your investigation. Did you followup with the 
specific individuals who made those allegations?
    Mr. Krongard. Sir, I have, I was provided with the 
transcript of the interview that was given to Mr. Mayberry by 
the Trafficking in Persons Bureau. So I had Mr. Mayberry's 
testimony.
    Mr. Tierney. Did you followup and speak to him directly?
    Mr. Krongard. I had no reason to speak to him directly, and 
I, sitting here today, have no reason to. I had everything that 
he said. David Finney has published everything that he has 
said. Some of the things that he said I saw with my own eyes.
    Mr. Tierney. Well, let me point to what he said. He saw 
things in March. You went there in September. So you thought 
there was no reason for you to question him at all about any 
disparities or differences that might have arisen in that point 
in time?
    You didn't want to inquire deeper into his observations or 
serious allegations?
    Mr. Krongard. No. I had everything he said. By the way, 
sir, I had been there the year before. I was there before he 
was.
    Mr. Tierney. But you did a more intensive investigation the 
second time, if I am correct, is that right?
    Mr. Krongard. Sir, when I look right now at the transcript 
of his interview with the Trafficking in Persons Bureau and I 
see some of the allegations that were made, they were contrary 
to what I saw and experienced in every post around the world, 
and I have oversight responsibility for some 265 posts and 
missions around the world.
    The vast number of those have some disgruntled employee and 
they make all kinds of allegations and they may be true. I am 
not saying that they are not, but I can't possibly start out by 
saying that anybody who makes an allegation, I should 
personally interview.
    I was given this transcript of Mr. Mayberry, and I had all 
the things that he said in the newspapers and on 60 Minutes.
    Mr. Tierney. Other than the two site visits that you made, 
who else did you talk to in order to investigate the 
allegations?
    Mr. Krongard. I am sorry, sir.
    Mr. Tierney. Other than the individuals that you talked to 
on your two sites, who else did you talk to during the course 
of your investigation?
    Mr. Krongard. First of all, I didn't do an investigation. I 
have tried to point that out. This was not an audit. It was not 
an investigation.
    This was an agreed upon procedures and a limited review 
which I also did in conjunction with visits by the management 
committee or the management counselor. I did it in conjunction 
with two visits by the MNF-I IG who are really the experts at 
this.
    Mr. Tierney. They didn't go there until some time after you 
went. In fact, you tried to go there with them, and they 
weren't able to make it, and so you went on your own with the 
deputy, is that correct?
    Mr. Krongard. Yes, but not very long after. I was there in 
September. They were there in December.
    Mr. Tierney. But you are telling me that you took no 
responsibility in your position as Inspector General to do an 
inspection or to do an audit on your own on these serious 
allegations?
    Mr. Krongard. I believe that I did that, sir.
    Mr. Tierney. I mistook that because I thought you just said 
you didn't do a thorough audit or investigation.
    Mr. Krongard. I did what I thought was appropriate. I 
tested the credibility of the allegations. I looked at what was 
said, and I thought that I did an appropriate job, and I think 
today that I did an appropriate job.
    Mr. Tierney. My time is expired. Thank you.
    Chairman Waxman. Thank you, Mr. Tierney.
    I want to recognize myself.
    We have heard allegations about concerns raised by Embassy 
staff and KBR about the quality of First Kuwaiti's work on the 
Embassy complex guard camp. Given that this is the same company 
that is going to be responsible for the construction of the 
permanent buildings at the Embassy complex, I am also concerned 
about the quality of work on those buildings.
    We have learned that the State Department officials have 
had concerns about the design and construction of key systems 
at the new Embassy. John Archensky, the deputy director for the 
Iraq Project Construction Office, has told committee staff that 
in reviewing designs prepared by First Kuwaiti his staff 
identified concerns about the fire protection system, the HVAC 
system, the power plant that could have affected the operation 
of the Embassy facility. This office is the part of the OBO 
dedicated to the Embassy project.
    For example, there were concerns that under First Kuwaiti's 
design, there were not enough ductwork fans to evacuate smoke 
from a fire so that people could exit the building safely. 
Under First Kuwaiti's design, the wrong electrical materials 
for the fire alarm system would be used. Under First Kuwaiti's 
design, the electrical power system might not operate correctly 
when the building is fully up and running which could lead to 
blackouts.
    According to Mr. Archensky, the Iraq Project Construction 
Office sent back the fire alarm system designs to First Kuwaiti 
three times and each time got back designs that did not address 
their concerns.
    General Williams, is there any reason that First Kuwaiti 
ignored proposed corrections to design flaws identified by your 
staff?
    General Williams. Well, I don't think they ignored them, 
Chairman Waxman. Let me just explain this process.
    There is always on these Embassy compounds and of course in 
all the other construction that I have done, it is always give 
and take around designs and submittals and so on.
    We have an ongoing process where we invite the particular 
discipline that we might have concern about. In this case, it 
would be fire engineers. At my request, they made the normal 
visit out, and we want them to dig and look and turn over every 
rock. I expect a report to come back identical to the way it 
came back so that we can be more vigilant about it.
    We take that report. We use it as a quality assurance to 
make certain that things are done correct.
    Chairman Waxman. I appreciate that.
    General Williams. But the real, if I could.
    Chairman Waxman. Sure.
    General Williams. The real rights of passage, if you will, 
for everything that we build on an Embassy is an accreditation 
process which occurs, about to occur now on the new Embassy. It 
will judge how the Embassy was built because prior to 
building--I think you know this, Mr. Chairman--we have to 
certify to the Congress that around a design, this is what we 
are going to build.
    So the accreditation team comes back at about the 98, 99 
percent level and accredits that. That process will take place. 
There is no way to have or to put in place a new Embassy 
compound that does not meet our specifications. There is a lot 
of give and take.
    Chairman Waxman. General, I appreciate that.
    But when the installation work began, the construction 
office conducted an inspection of the fire safety system and 
identified the following problems. The inspection determined 
that First Kuwaiti had installed the wrong size conduits in the 
alarm system that had to be fixed. The inspection determined 
that the pipe for the sprinkler system were not connected 
properly and could break apart under pressure.
    Are you concerned about these problems that your staff 
identified or do you just hope that when you do the 
accreditation it is going to be corrected?
    One of the documents we asked to see before this hearing 
was the fire safety report that documented the problems we have 
been talking about. Mr. Archensky talked about this report in 
his interview with the committee staff. This is being withheld 
from the committee.
    I don't understand why it is being withheld. Hiding bad 
news will not make bad news go away. It usually compounds the 
problem.
    I want your response to this. Are you concerned about these 
problems that your staff has identified?
    General Williams. I would be happy to, Mr. Chairman. I am 
concerned about every single problem, and I think anyone who 
has been in an earshot of me for the last 6 years knows this. I 
turn over most of these myself when I go. I am looking for 
them.
    Any time a report comes in to me, I ordered the fire people 
to go out as I do on all of these. Go out and take a look. I 
send electrical people out. I send mechanical people out, etc.
    I want to be absolutely certain because there will be an 
accreditation process, and I want these things corrected.
    I have found with this contractor that there has never been 
any shyness on correcting what we bring to their attention. 
They want to get it right. They have tried very hard to get it 
right. They are not perfect.
    I have never seen a perfect project. There is always when 
you are installing something of this magnitude, there are 
things that are not exactly the way they should be, and that is 
the reason we have these checkpoints in the process. We have a 
good process. If you look at the 50 embassies that we have 
built, they will meet the test and the standard.
    Chairman Waxman. The guard camp went through the same 
process.
    General Williams. No. Guard camp is a temporary facility. 
It is not subject to the rigor of a permanent facility.
    Chairman Waxman. I see. So the fact that was all messed up 
with all sorts of problems shouldn't be taken as evidence that, 
one, you didn't have a process that worked and, two, the 
company that didn't work shouldn't be held accountable for it 
or thought maybe would be doing poor work on the Embassy.
    General Williams. No, Chairman Waxman. The company that 
built it should be held responsible for doing everything that 
they set out to do. As I mentioned earlier, we have not paid 
them, so the Government has no issue here.
    Any of these issues that we feel that clearly are on First 
Kuwaiti's plate, they have been or will be taken care of.
    But, as I said earlier, for someone who spent 2 years in 
Vietnam and lived in a camp, you never get a camp right. You 
constantly are doing things to it and it is sort of in the eyes 
of who comes after you. But we do the best we can with it to 
make it work.
    Chairman Waxman. My time is expired, but I just want to say 
that KBR complained that this wasn't being done properly. It 
still wasn't fixed. Then your own people went out and came back 
with the same problems. It still wasn't fixed.
    I just think that is an indication of a system that is not 
working the way it should, and that is why I am asking all 
these questions.
    It is Mr. Shays' time.
    General Williams. Is it possible for me to respond to that?
    Chairman Waxman. Certainly, go ahead.
    General Williams. Our people, my people did not go back to 
the man camp and come back and say that things were not done. 
What I recall is I have 80 union workers on this project, all 
Americans, and to make certain that this camp's electrical part 
was right.
    Chairman Waxman. Let me just say that I have a document 
that I am sure you have seen, and it says: ``Within this 
document are the results of the commissioning of the DS man 
camp on the west side of the new Embassy complex in Baghdad, 
Iraq. As noted within the enclosed documentation, the camp 
meets and exceeds the requirements of Section C of contract.''
    Then it goes through within the camp are the following 
structures, and it is certified.
    Well, I don't know what that is supposed to mean if it 
turns out they certify it and then it is not meeting those 
expectations.
    General Williams. Well, there is a punch list on every 
single piece of work that I think anyone has ever touched. This 
was KBR coming in, and they looked at things. We had, as my 
friend here said, some discussions about them, and we will 
correct those.
    Chairman Waxman. KBR came in after the punch list.
    General Williams. Yes.
    Chairman Waxman. So they came in after the punch list and 
said these things are not the way they are supposed to be.
    Mr. Shays.
    Mr. Shays. Thank you. Thank you, Mr. Chairman, and thank 
you to the witnesses.
    As I have listened to today's hearing, I came in with an 
open mind, concerned particularly about, one, the cost of the 
facility that costs $592 million. That is a lot of money 
considering this is a rather big facility but recognizing that 
you are basically going to look to house everyone within the 
compound which makes it much more expensive.
    I am struck by the fact that there is really no contention 
that you aren't on time and that you haven't stayed within 
cost. So that is a significant fact to point out.
    There is no project that is not going to have issues about 
the quality of work in certain places. The issue is how have 
you dealt with it. I am struck by your testimony and the 
witnesses that testified that you have dealt with it pretty 
well.
    But who knows? Maybe there will be some report that finds 
something later that you haven't done well. The one thing we 
can be certain of is you have done a heck of a lot better job 
in building this facility in a war zone than we have done in 
staying within cost and within time in the visitors center here 
in the Capitol. That is very clear to me.
    What is disconcerting to me is the continual confusion of a 
workers compounds in temporary trailers, now temporary more 
than 90 days but not permanent. They are going to be taken down 
and mixing that up with the facility.
    Then when we look at the KBR's first witness, we are 
basically looking at something under $6,000 worth of mistakes, 
not tens of thousands, not hundreds of thousands, not millions, 
certainly not billions. So I am struck with that.
    What concerns me is the issue that it relates to employees. 
One, I would have liked these to be Iraqis. First, tell me why 
they couldn't be Iraqis and then I want to go from there.
    General Williams. Congressman Shays, we tried very hard to 
vett and get Iraqis to work. This was our first choice, at 
least the contractor's first choice.
    I will let my colleague, Ambassador Kennedy, speak to the 
difficulties of getting that process through.
    Mr. Shays. Give me the short version, not the long version.
    Mr. Kennedy. Mr. Shays, there are two issues here. One is 
that because of the security situation in Baghdad, the Iraqi 
employees are truly afraid to transit in and out of the Green 
Zone.
    Second, we have not been able to find an easy way to vett, 
run police checks, run security checks on Iraqis because of the 
problems that are currently present in the country. Therefore, 
we did not want to inject an element of bringing employees onto 
the site who might do not what we wanted them to do, to do 
something nefarious.
    So, first choice, hire local but if we cannot hire local 
for a variety of reasons, then we must go to alternate means of 
employment.
    Mr. Shays. Mr. Inspector General, I am looking at a 
document, and it says basically several NEC TCNs reported that 
fraudulent hiring practices were used during their recruitment. 
They stated the promises made and the terms of the original 
contracts presented to them in their country of origin were 
inconsistent with the actual conditions--low pay, longer hours, 
no days off--of their employment in Iraq.
    In all cases where deceptive hiring practices were evident, 
the workers originated from the Indian Subcontinent, countries 
of Nepal, India, Pakistan, Bangladesh and Sri Lanka. The 
deception was from recruiting agencies that were being paid by 
these workers if they accepted these jobs and traveled to Iraq.
    Additionally, some workers were told to sign contracts in 
their home countries in English even though they could not read 
or understand the text of the contract.
    That seems to be to be a pretty serious problem. While we 
can't necessarily call it slave labor, doesn't it suggest that 
the people who were contracting these people may have made out 
like bandits while the people who ended up working in Iraq were 
clearly being abused, given they didn't get everything they 
expected in terms of pay and given that their hours may have 
been longer, etc.?
    Put in context that. It seems to me that is a pretty strong 
indictment.
    Mr. Krongard. Yes, sir, it may well be. The question is who 
is it an indictment of, and it is mainly an indictment of 
recruiting practices in the Indian Subcontinent countries. I 
don't really have the jurisdiction.
    Mr. Shays. I know you don't have the jurisdiction, but 
maybe I could ask all of you to address it.
    This is what I think this hearing should focus on. We can't 
wash our hands of the fact that we asked someone else to do the 
recruiting and, in the end, we end up with people who have been 
in fact brought in, getting less pay, and not getting the 
employment they thought while the people who did it seem to 
have made out quite well.
    I guess what I want is what is the difference?
    Mr. Krongard. If I may, and I don't want to be in the 
position of defending these recruiters because I am most 
certainly not. I want it on the record that I very much 
disapprove of that. We have recruiters in this country who do 
things that I disapprove of.
    But I did go back to First Kuwaiti because I wanted to know 
whether they had any relationships with these recruiters or 
were sharing in the making out like a bandit as you say.
    What I was told and based on my discussions, limited though 
they were, it was supported that First Kuwaiti itself was not 
using recruiting agencies, that they did not have any direct 
relationships, that they did not share in any of the profits, 
that for the most part the people that they came in touch with 
who became employees on the new Embassy compound site had been 
hired by other construction companies on other sites and then 
had switched over to First Kuwaiti.
    Mr. Shays. Let me interrupt, though. It was our money that 
was paying these folks, wasn't it, ultimately?
    Mr. Krongard. No.
    Mr. Shays. I don't know how you can say no. Aren't we 
paying for the Embassy?
    Mr. Krongard. We are paying a fixed price for the Embassy. 
That is correct.
    Mr. Shays. Right, and so it may not be our taking and 
writing out a check to them, but it is basically our dollars 
going to be used in this Embassy, hiring contractors and others 
to do the job. Don't we have some moral responsibility to make 
sure that the employees who are working there aren't being 
taken advantage of?
    I would ask the indulgence of the Chair just to pursue it 
with the others.
    So do you have a comment on that?
    Mr. Krongard. I am sorry. I don't believe that I have any 
authority to enforce the laws of Nepal or Sri Lanka. I really 
don't.
    Mr. Shays. I am really not asking whether you enforce it. 
You were clear as to what you were saying. You were saying 
these people were taken advantage of.
    Mr. Krongard. Yes.
    Mr. Shays. But it seems to me that it rests on our 
shoulders because we are the ones who are ultimately paying the 
people to build this.
    Mr. Krongard. And, sir, I have advised the Department of 
Justice of that.
    Mr. Shays. OK. Let me ask the State, and then we will go 
from there.
    Thank you, Mr. Chairman.
    General Williams. Yes, just a quick note, Congressman 
Shays, before I pass to my procurement colleague.
    Every matter that relates to the human element in the area 
that I supervise is important as part of the preconstruction 
conferences with any contractor, American contractors, because 
you know they get their work done with foreign workers. So it 
is not just an isolated matter here for First Kuwaiti.
    We say to them, we expect you to be very, very much in line 
with our rules and regulations as much as they can.
    Mr. Shays. But they weren't.
    General Williams. Pardon me?
    Mr. Shays. It appears that they were not.
    General Williams. Well, no. We say this every time that we 
hear one of these allegations.
    Mr. Shays. General, I just have to say, saying it and 
somehow enforcing it with how we reimburse and so on, there 
should be some mechanism that holds us accountable.
    I realize I am a little over time, but I would like to just 
have Mr. Moser respond.
    Mr. Tierney [presiding]. Before you do, if you would just 
yield to me 1 second.
    Mr. Shays. Sure.
    Mr. Tierney. I think you are onto the nub of this part of 
the hearing. The subcommittee's part of the hearing is on this, 
and that is what we thought was important.
    We all know what we are dealing with here, and I don't 
think anybody is comfortable. I wouldn't suggest that any of 
you gentlemen are comfortable with what is going on.
    So the question is why don't we have it in the contracts to 
people like First Kuwaiti and for somebody like that, Mr. 
Moser? Why isn't it a contractual matter that they make sure 
that even if they try to outsource the hiring or if they accept 
the work?
    I mean I don't really buy that everybody just showed up. 
Three thousand people showed up, and they were actually hired 
by somebody else and just hopped over the fence to First 
Kuwaiti or whatever. But why aren't they responsible for the 
recruiters and the recruiters' bad practices and then that 
company is responsible to us so that this kind of thing doesn't 
happen?
    Mr. Moser. Well, Mr. Shays, I think to be honest with you, 
we do the contract according to the Federal acquisition 
regulations.
    Mr. Shays. I don't think your mic is on.
    Mr. Moser. Excuse me. I am sorry. The mic wasn't on.
    But to be honest with you, Mr. Chairman, we construct the 
contracts on the basis of the Federal acquisition regulations. 
In June 2006, we added to all of our contracts unilaterally the 
Trafficking in Persons clause in conformance with legislation 
by Congress.
    We take these very seriously, but at this time our reach 
does not extend to third country hiring practices. It is not 
within the terms of the contract. Even though we can have a 
discussion about whether that is a good idea or not, it is 
currently not within the legislative scope of the Federal 
acquisition regulations.
    Mr. Shays. Well, as the chairman said to me, we should make 
sure that we have impact there.
    I would just conclude, and I think all my colleagues would 
agree so I am not just taking a position that is unique to my 
own view. We are complicitous, and we have to make sure this 
does not happen. We have to make sure that in the process of 
trying to find people who can work at a facility, given it 
can't be Iraqis, that we are in essence becoming part of the 
problem of human trafficking.
    That is what I am concerned about at least as it relates to 
this hearing, and I know, Mr. chairman, that was your concern 
when we started this.
    Mr. Tierney. This is the reason for this hearing. I 
understand that the modification was made to the First Kuwaiti 
contract last year amongst a lot of other contracts because of 
legislation this Congress passed, sharing everyone's concern on 
that. They added the human trafficking clause. The President 
has made it very clear that he declared that there be zero 
tolerance for it when it came to human trafficking.
    But even under General Casey's tenure in Iraq, the 
Department of Defense confirmed that there were deceptive 
hiring practices going on at the time, excessive fees charged 
by overseas job brokers who lured workers into Iraq, 
substandard living conditions once laborers arrived, violations 
of Iraqi immigration laws, lack of mandatory awareness training 
on the U.S. bases concerning human trafficking.
    The General ordered in April 2006, that harsh actions be 
taken against firms that failed to return passports or other 
abuse practices. Contracts would be terminated. Contractors 
would be blacklisted from future work, and commanders could 
physically bar firms from bases.
    We have put that modification there. Are you telling us now 
that is not enough, that in order to hold the Kuwaiti company 
responsible for their subcontractors who are out there bringing 
people in under these bad conditions?
    It seems to me we need, one, a more intensive authority for 
Mr. Krongard to go in and inspect and audit and, two, we need 
to put some teeth into these things so it doesn't happen. I 
will just take the liberty of getting a response on that.
    General Williams. Mr. Chairman, we will clearly look into 
it. We take your counsel very seriously. This is a matter that 
if we can have more authority and provisions, I am sure that 
our procurement arm would be delighted to deal with that.
    Mr. Tierney. I thank you.
    As I think the testimony here today indicates--Mr. Shays, I 
think you will agree--inspections on a regular basis to see 
whether or not this is happening, contractual provisions to 
hold people responsible, not just to kick it down the road and 
say, gee, it happened in Asia or Southeast Asia, and then some 
accountability on that.
    Mr. Krongard. Sir, if I could respond to you as well 
because I agree with you.
    Mr. Tierney. Yes, Mr. Krongard, please.
    Mr. Krongard. I wish I did have more authority, and that is 
why I went to the Justice Department. I have had lengthy 
discussions with them about what their jurisdiction is.
    But I do want to say you mentioned their subcontractors. We 
still do not have any evidence that First Kuwaiti is in privity 
with or has relationships with these contractors, these 
recruiters.
    Mr. Tierney. I understand, but maybe we should find out 
whether that is the case.
    Mr. Krongard. I did the best I could.
    Mr. Tierney. Because it stretches the credibility of all of 
us here to think that every single worker for First Kuwaiti 
just happened to be in Iraq at the time, whether they are from 
Nepal or India or some place else and they took them from 
somebody else's handiwork of getting them into Iraq.
    Mr. Krongard. No. What happens is that the workers in these 
countries are recruited. They pay money to the recruiters, and 
the recruiters assist them just like college recruiters or 
something would do here and assist them in getting the jobs 
with First Kuwaiti or with somebody else.
    Mr. Tierney. People can't be turning a blind eye to that. 
People know how this process works, and it shows up on their 
doorstep. People have to take responsibility for it one way or 
the other. It starts with us, goes down to the contractor, goes 
right down to what is happening to those people.
    When you have to take $2,500 from somebody in order to get 
them for a job that pays $7 a day and then tell them they can't 
leave unless they pay $3,000 which is some of the testimony 
that we have in reports--it was before today--there is a 
problem here. I don't think any of you disagree.
    We need to do something about that, and that is the purpose 
of this hearing and this portion of this hearing.
    General Williams. We take your counsel, Mr. Chairman.
    Mr. Tierney. Thank you.
    Ms. McCollum, you are recognized for 5 minutes. Thank you 
for your patience.
    Ms. McCollum. Thank you, Mr. Chair. I want to read a little 
more here.
    These workers reported that they usually raised money to 
pay for the recruiting fees by selling or mortgaging their land 
or house to a bank at 18 to 24 percent interest per year. Other 
workers borrowed money from family or friends in their village 
to pay these legal fees to recruiters, and in several extreme 
cases it went on that workers relinquished all pay between 9 
and 12 months of labor in order to repay their recruiting fees 
and interest.
    On page 2, No. 4, I believe these are your words: ``I saw 
no evidence of trafficking in persons violations other than 
illegal recruitment fees occurring. The workers were being 
paid. They had the ability to quit any time and, with some 
advance notice, return to their home country.''
    Are those your words?
    Mr. Krongard. No. What you read from first were the words 
of the Inspector General of MNF-I which is appended to my 
report.
    Ms. McCollum. This is attached to your report.
    Mr. Krongard. But I don't think I disagree with their 
conclusion that those things which were----
    Ms. McCollum. Excuse me, though. People who mortgage their 
homes at 18 to 20 percent interest per year, borrowed money 
from family and friends, basically said that they relinquished 
all pay for 9 to 12 months, you would agree then with the 
statement at the bottom that workers were being paid and they 
had the ability to quit any time at some advance notice and 
return to their home country?
    Mr. Krongard. Yes, they did have the right to do that.
    Ms. McCollum. They had the right to do that probably if 
they came up with their own airfare to get back home and could 
find their passports.
    I have a question, sir. Mr. Owens and Mr. Mayberry 
described people who had been brought into work, in their 
opinion, under false pretenses. Do you think that there is some 
validity to their statements based on what I just read and 
based on what you said about how this was subcontracted to 
somebody to somebody to somebody so nobody really knew what was 
going on when these people were recruited or what they had been 
told?
    Mr. Krongard. No, I don't think that is what we were. That 
is not what I was told, and that is not what I am saying.
    First of all, the people that I spoke to, and I didn't 
speak to.
    Ms. McCollum. I asked you if you thought Mr. Owens and Mr. 
Mayberry, based on what they testified, based on the proximity, 
the amount of time that they spent with these individuals, 
being in an airplane when destination Baghdad came over the 
speaker. I think most people around the world know where 
Baghdad is and what Baghdad translates in English.
    They seemed pretty shocked and seemed like they didn't 
think this was what they signed up for.
    Based on what I had just read and what has just been 
discussed by you gentlemen here for, in my opinion, horrific 
job recruiting practices that this in fact, what Mr. Owens and 
what Mr. Mayberry said, very well could have been accurate. You 
don't know that it isn't accurate, do you?
    Mr. Krongard. Neither I nor the MNF-I IG had found any 
reason to believe that the stories regarding the aircraft and 
people not knowing where they were going. We found nothing to 
support that.
    Ms. McCollum. But you don't know whether it is accurate or 
inaccurate, do you?
    Mr. Krongard. I have a lot of indication that it is not 
accurate. All the information that I have, other than from 
those two gentlemen, is that it is inaccurate.
    Ms. McCollum. Maybe General Williams, you were talking 
about security earlier. Is the site of the U.S. Embassy 
construction area, a secure area?
    General Williams. Yes, it is.
    Ms. McCollum. Does access to the Green Zone and the Embassy 
constructionsite require a security clearance?
    General Williams. That is set by the Green Zone. I defer to 
my colleague.
    Ms. McCollum. The Embassy constructionsite then, does that 
require a security clearance?
    Mr. Kennedy. The access to the Green Zone is not, does not 
require a U.S. security clearance. Access to the 
constructionsite, as General Williams can explain better than 
I, there are multiple layers within the constructionsite.
    Ms. McCollum. I have limited time. I understand that. It is 
already yellow.
    Have security background checks been done on all the 
individuals permitted inside of the Embassy construction zone?
    General Williams. When they were required, I have not 
received any information to suggest they are not.
    Ms. McCollum. All the employees of First Kuwaiti working on 
the site, do they all have security background checks?
    General Williams. They have been vetted through the system 
that is required for all workers on our sites.
    Ms. McCollum. So these recruiters when they were getting 
them in the villages and they were signing up their 18 and 20 
percent mortgages on their homes so that they could pay these 
exorbitant recruiting fees, they were vetted by these 
recruiters?
    General Williams. Congresswoman, I believe this was 
occurring in the countries where the individuals were.
    Ms. McCollum. Whose responsibility should it be for the 
security background checks? Should it be the U.S. Government's 
responsibility?
    General Williams. I will defer.
    Mr. Kennedy. Ms. McCollum, there is a distinction between a 
U.S. security clearance which is required and can only be 
granted to an American citizen to work in certain areas and to 
have either access to classified information.
    Ms. McCollum. I made it very clear I was talking about 
constructionsites, gentlemen. I wasn't talking about looking at 
how the alarm system is going to operate but the basic 
construction system.
    You said you couldn't hire Iraqis because they couldn't be 
vetted. So I am asking, who vetted these people?
    Mr. Kennedy. Name checks are run on workers, but there is a 
difference between a vetting name check and a security 
clearance, and that is what I am trying to explain is that 
there are, in effect, gradations and levels depending on the 
work involved, ma'am.
    Ms. McCollum. Well, Mr. Chair, my time is up.
    But I would be very anxious in finding out why we weren't 
able to really find out how these people were selected for this 
job. They came from countries--Pakistan, Egypt, Bangladesh, and 
India--where there are terrorism concerns, and the fact that 
they are in-country, working in a U.S. area, building a U.S. 
Embassy is a concern to me.
    Mr. Tierney. Mr. Kennedy.
    Mr. Kennedy. If I might, Ms. McCollum, I know your time is 
limited today, but I would be happy to come and see you, 
accompanied by a senior representative from our diplomatic 
security service, to explain the intricate process that we do 
go through, ma'am.
    Ms. McCollum. Mr. Kennedy, I think just providing that 
information to the committee would be fine. Thank you very much 
for your offer.
    Mr. Tierney. Thank you, Ms. McCollum.
    Ambassador, let me just pry a second on that because I am 
curious. There were two aspects to your issue with the people. 
One was that Iraqis were finding it difficult to go into the 
Green Zone and back out. They had their own security they were 
concerned about, and I understand that.
    That may, in fact, be a stopper on that because my first 
question coming in here was why aren't we just hiring all the 
Iraqis. If we can hire Pakistanis, we should be able to do the 
same background check on all of them.
    Is that pretty much it, that we could do the same 
background check on everybody and hire, but it is really the 
second point that is a stopper?
    Mr. Kennedy. It is both, sir. I mean there are a number of 
Iraqis that are afraid to enter the Green Zone and, second, we 
are able to do the limited vetting that we do in some locations 
easier than we can do it in Iraq because of the lack of records 
and the ongoing strife there.
    Mr. Tierney. So it may be easier in Nepal and Pakistan and 
places like that than it is in Iraq?
    Mr. Kennedy. To do vetting.
    Mr. Krongard. Sir, could I make a point on that as well?
    Mr. Tierney. Sure.
    Mr. Krongard. Some 2 years ago, that was before some of 
you, and in conjunction with the Inspector General of the 
Department of Defense, my office issued an interagency 
assessment at an Iraqi police training program. One of the 
things we pointed out then, and I think it was well received, 
was that the recruits to the police forces were not vetted 
well.
    There has always been difficulty for us as Americans in 
vetting Iraqis particularly because you might find some 
terrorists in some of these countries, but in Iraq every one 
has a side. They have a religion. They have an ethnicity. They 
have a tribe. They are living in that war zone area.
    We were critical at that time of the vetting process, and I 
personally continue to be concerned about anything that would 
bring large numbers of Iraqis who are not well vetted into 
secure areas.
    Mr. Tierney. Thank you for that.
    General, I have a point that I want to raise. Michael 
Michener from the Bureau of Democracy, Human Rights and Labor, 
DRL I guess we call it, I am informed that he sought access to 
the Embassy site in order to investigate allegations of labor 
abuse and reportedly he was denied access by Mr. Golden, by 
James Golden. Can you enlighten us on that?
    General Williams. No, I cannot. I heard the same thing. I 
checked with Mary French who is the keeper of the key to 
whoever comes on the guard site. She is very tight. She is very 
sensitive about what goes on, on that site.
    Congressman, just understand that our people are under 
tremendous pressure, and I know you have appreciation of what a 
war zone is, but it is wound up as tight as it can get every 
day. There is so much that Mary has to look at. One is 
security. We were concerned about this from day one.
    Mr. Tierney. Can I just interrupt you for a second because 
I want to make sure we get your answer right. I am not told 
that she refused anybody admission. I am told that Mr. Golden, 
without comment, refused Mr. Michener the access. Now Mr. 
Golden himself isn't even on the site.
    General Williams. Right, so I don't know that.
    Mr. Tierney. Would you inquire into that for us?
    General Williams. I will inquire, and I will get back to 
you on that, sir.
    Mr. Tierney. And get back to the committee on what is going 
on with that because I think that is important to know.
    General Williams. Yes, sir.
    Mr. Tierney. I assume, and you can tell me otherwise, that 
you have never resisted the initiation of an investigation by 
the Inspector General, by the Department of Justice or any 
other investigative body, even the DRL. Is that correct?
    General Williams. No, but when issues come to me in that 
regard, I report them to the Inspector General and the 
department in the State Department that is responsible for 
them.
    Mr. Tierney. I will tell you one more reason why that 
concerns me. I have a series of e-mails here that went from the 
DRL back and forth to Baghdad on that. The last one is from Mr. 
Golden, and it basically is to Mary French. It refers to an e-
mail about this trafficking question and whether or not we can 
inquire of those matters or not. Mr. Golden responds to Mary 
French, do not respond to these folks, the DRL.
    I would be concerned about that. I hope you will look into 
that.
    General Williams. Well, I will look into it.
    Mr. Tierney. Because I think it is their job to inquire.
    General Williams. Sure.
    Mr. Tierney. We want them to do that, and I suspect you 
want them to do it.
    General Williams. That is right.
    Mr. Tierney. Last point for me before Mr. Shays adds his 
last one and we will let you go, and I don't know if Mr. 
Kennedy wants to answer this.
    I understand we are building or plan to build an Embassy in 
Lebanon, and there has been controversy reported recently that 
it is right smack in the area where Hezbollah are said to 
control. I am told recently that might now be on hold. Is it on 
hold or is it going forward?
    If it is on hold, exactly when was that decision made and 
communicated to you?
    Mr. Kennedy. As part of our ongoing process, the General 
working with the entire Department prepares a list, and we will 
build this Embassy next and then that Embassy. We had plans to 
build an Embassy in Beirut.
    In light of the recent events in Lebanon, there was a 
discussion within the Department and on July 6th, the Under 
Secretary for Management determined that the conditions on the 
ground in Beirut did not permit us now to proceed with the 
construction effort. That was communicated the following day to 
the General, to the Near East Bureau and to our Ambassador in 
Lebanon.
    Mr. Tierney. We are all aware that it was the Embassy in 
Lebanon, that going back and forth there seemed to be some 
discussion, at least on the wire, that the Ambassador and 
people in Lebanon were anxious that it not happen.
    There was pushback from the General. I guess from you or 
maybe Mr. Golden or others. This went back and forth until 
there was a decision made. Is that not accurate?
    Mr. Kennedy. There was a discussion about what is best to 
do. We sought the advice of the Ambassador, and the Ambassador 
made his recommendation, and the Under Secretary determined 
that conditions on the ground did not permit us to build that 
Embassy at this time. That was then communicated to all within 
the Department and to our Ambassador in Beirut.
    General Williams. And it was a very orderly process, Mr. 
Chairman, of give and take. So we arrived at a decision, and it 
is fine.
    Mr. Tierney. And so, as of July 6th, it is on hold.
    Mr. Kennedy. Yes, sir.
    Mr. Tierney. You will inform Congress as you move forward 
if there is any change in that.
    Mr. Kennedy. That is correct, sir.
    Mr. Tierney. Last question from me, I would like your 
reaction to a statement that the Embassy in Iraq is bigger than 
it should be if you really expect Iraq to stabilize and not as 
big as it needs to be the nerve center of an ongoing war 
effort.
    General Williams. Well, let me speak to that, Mr. Chairman, 
because we took great care before the appropriations committees 
and the authorizers before we moved forward. All of the plans 
for the execution of this project was presented to them.
    One of the issues that was on the table was availability. 
What happens if we go down? What happens if we expand?
    If you look at our site, you know it is sort of rectangular 
in shape. So we spread it out over the 65 acres to allow us the 
opportunity to jettison, cutoff, sell off, give away, whatever 
we were going to do with any one of the facilities, and we left 
the nerve center in the center of this footprint.
    Mr. Tierney. Hence, they call it the nerve center.
    General Williams. So we could get as small as needed to get 
and we could jettison off the rest. Our appropriators thought 
this was a good way to do it, so we can expand or we can 
shrink.
    Mr. Tierney. Good. Thank you for that.
    Mr. Shays, you indicated you had a further question.
    Mr. Shays. Just, Mr. Chairman, I want to thank our 
witnesses. I want to thank them for their work. I want to thank 
them for their dedication and to suggest that I also appreciate 
your candor in the area that we do need to address and that is 
the hiring practices of third parties.
    That is something that, one, we need to empower the 
Inspector General to have a little bit more oversight, and we 
need to make sure that we are not washing our hands of it 
because it is a third party. I think you all agree.
    That is the element of this hearing that I thought had 
merit. I will say the other aspects of it, I think, didn't. But 
this is the area that did in my judgment.
    Mr. Tierney. Thank you.
    Mr. Shays. I thank you, Mr. Chairman, because I know that 
is what you intended.
    Mr. Tierney. Mr. Shays, that is exactly what this is.
    Mr. Shays. Let me make this point. I know this was the 
intent of this subcommittee's hearing.
    Mr. Tierney. It exactly was, and I thank you for that.
    Gentlemen, I think that there are only two things 
outstanding. One is there is a document request and another is 
a subpoena, and I would just like to get a date.
    I think Mr. Williams, Ambassador Kennedy and Mr. Krongard 
are the ones who want to be responding to that, if you can just 
give me a date as to when we can expect that material.
    Mr. Kennedy. We did get a number of materials to you today. 
There is a cover letter, Mr. Chairman. Our legislative people 
are in contact with you.
    There are a couple of documents that you have requested 
that we simply have not been able to identify a document that 
directly equates to your request, but we have no intention of 
hiding anything from you.
    Mr. Tierney. No claims of executive privilege or anything 
else.
    Mr. Kennedy. Not that I am aware, sir.
    Mr. Tierney. Mr. Krongard.
    Mr. Krongard. Sir, if I may, we did. I still to this moment 
haven't seen the subpoena. But when it was told to me 
yesterday, I spoke to people who responded to you and there 
were two things that were put in a letter, I think that came to 
you this morning. One is that I can tell you that I have 
nothing of any significance that hasn't been incorporated or 
referred to in my report.
    But there are things which do exist, and I am very 
concerned that to give up investigative materials like this to 
requests such as this at this time would be very, have a very 
chilling effect on my ability to carry out my statutory 
responsibilities.
    Mr. Tierney. Well, I am going to do you a favor then. I am 
going to have our committee work with you to see if you get 
beyond that before we do anything formal on that.
    If that proves to be the case, then certainly we will 
respect that. If it doesn't, we will talk to the minority and 
we will come back and discuss with you how we might get what we 
need without jeopardizing your responsibilities.
    Mr. Krongard. You understand, sir, that there is a 
distinction between the Department responding and the 
Departmental IG responding.
    Mr. Tierney. I certainly do. I certainly do.
    Mr. Davis.
    Mr. Davis of Virginia. Mr. Chairman, let me thank you.
    This panel gets to the nub of the issue on the third 
country nationals, an issue that I don't think has been a 
priority ever. It has been a unique problem, and I appreciate 
your candor on this, and I appreciate the chairman's calling 
our attention to it.
    As far as the other elements of the hearing, I think we 
could have gotten right to this and gotten right to the nub of 
it, and I thought the other was kind of, frankly, a little 
wasteful.
    But, Mr. Chairman, I appreciate your bringing this to our 
attention, and I appreciate the job you are doing. Thank you.
    Mr. Tierney. Thank you very much.
    I thank all of you again.
    [Whereupon, at 1:50 p.m., the committee and subcommittee 
were adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 43507.079

[GRAPHIC] [TIFF OMITTED] 43507.080

[GRAPHIC] [TIFF OMITTED] 43507.081

[GRAPHIC] [TIFF OMITTED] 43507.082

[GRAPHIC] [TIFF OMITTED] 43507.083

[GRAPHIC] [TIFF OMITTED] 43507.084

[GRAPHIC] [TIFF OMITTED] 43507.085

[GRAPHIC] [TIFF OMITTED] 43507.086

                                 <all>

</pre></body></html>
